About
The National Science Foundation...
      The National Science Foundation (NSF) is charged with supporting and strengthening
all research disciplines, and providing leadership across the broad and expanding frontiers
of scientific and engineering knowledge. It is governed by the National Science Board which
sets agency policies and provides oversight of its activities.

     NSF invests approximately $5 billion per year in almost 30,000 research and education
projects in science and engineering, and is responsible for the establishment of an information
base for science and engineering appropriate for development of national and international
policy. Over time, other responsibilities have been added including fostering and supporting
the development and use of computers and other scientific methods and technologies;
providing Antarctic research, facilities and logistic support; and addressing issues of equal
opportunity in science and engineering.


... And The Office of Inspector General
     NSF’s Office of Inspector General promotes economy, efficiency, and effectiveness in
administering the Foundation’s programs; detects and prevents fraud, waste, and abuse
within NSF or by individuals that receive NSF funding; and identifies and helps to resolve
cases of misconduct in science. The OIG was established in 1989, in compliance with the
Inspector General Act of 1978, as amended. Because the Inspector General reports directly
to the National Science Board and Congress, the Office is organizationally and operationally
independent from the agency.




Cover photograph by Dr. Ken Busch
                                                                  Table of Contents


Executive Summary ............................................................... 5

OIG Management Activities................................................... 7
        Congressional Testimony ................................................................ 7
        Legislation Review .......................................................................... 8
        Outreach ......................................................................................... 9

Audits & Reviews ..................................................................13
        Significant Reports ........................................................................     13
        Other Reports ................................................................................   20
        A-133 Audit Reports ......................................................................       21
        Corrective Actions Prompted by Previous Audits ...........................                       24
        Work in Progress ..........................................................................      25

Investigations ...................................................................... 27
        Civil and Criminal Investigations .................................................... 27
        Administrative Investigations ......................................................... 30
        Reviews ........................................................................................ 37

OIG FY 2004 Performance Report .................................... 39
        Goal 1: Increase OIG Impact on NSF’s
                Effectiveness and Efficiency ............................................. 39
        Goal 2: Safeguard the Integrity of NSF
                 Programs and Resources ................................................ 43
        Goal 3: Utilize OIG Resources Effectively
                 and Efficiently .................................................................. 46

Statistical Data ......................................................................51

Appendix .............................................................................. 65
        Reporting Requirements ................................................................ 65
        Acronyms ...................................................................................... 66
                                    From the Inspector General



      This report highlights the activities of the National Science Foundation (NSF) Office of
Inspector General (OIG) for the six months ending March 31, 2005. I am extremely proud of the
staff’s efforts during this period. Our office issued 15 audit reports and reviews containing
$41,602,281 in questioned costs and made recommendations that would put $620,020 in federal
funds to better use. We closed 27 civil/criminal cases and 31 administrative cases, and our
investigations produced $230,568 in recoveries. In an era when government budgets are getting
tighter, these savings represent a significant source of NSF funding for new research and improved
post-award operations. More about OIG’s accomplishments is included in our annual Performance
Report on p. 39.

     Last December, the Inspector General community issued A Strategic Framework which
presented our collective mission, vision and goals for the next five years. It states that the federal
Offices of Inspector General have two basic roles: 1) to identify and report on current problems
and 2) to foster effective program management to prevent future problems. Consistent with
these important responsibilities, this Semiannual continues to report on audits and investigations
that reflect the significant management challenges we have identified at NSF, such as post-
award administration, the strategic management of human capital, and the management of large
infrastructure projects. I am confident that the agency will continue its efforts to address these
challenges, and I look forward to providing whatever OIG assistance may be needed.

     I would also like to offer a warm welcome to the new members of the National Science
Board: Dr. Dan Arvizu, Dr. G. Wayne Clough, Dr. Kelvin Droegemeier, Dr. Louis Lanzerotti, Dr.
Alan Leshner, Dr. Jon Strauss, and Dr. Kathryn Sullivan. It is a privilege to work with you and our
returning Board members to continue the agency’s impressive record of accomplishment.




                                                                          Christine C. Boesz, Dr.P.H.
                                                                                  Inspector General
                                                                                       May 19, 2005
                                               Executive Summary
• The Inspector General testified before the U.S. House of
  Representatives, Committee on Science, Subcommittee
  on Research that the two most important management
  challenges facing NSF are strategic management of NSF
  resources and improved financial performance. Dr. Boesz
  also submitted a statement for the record before the U.S.
  Senate Committee on Appropriations that discussed in
  more detail NSF’s challenge in managing large
  infrastructure projects. (p. 7)

• In accordance with the Chief Financial Officer’s Act of
  1990, KPMG LLP conducted an audit of NSF’s financial
  statements for FY 2004 and issued another unqualified
  opinion to NSF. However, the auditors identified post-
  award monitoring as a reportable condition for the fourth
  consecutive year. The auditors also identified a second
  reportable condition concerning NSF’s monitoring of its
  largest contractors. (p. 13)

• At NSF’s request, the OIG contracted with the Defense
  Contract Audit Agency (DCAA), to complete an audit of
  Raytheon Polar Services Company (RPSC) discussed
  in an earlier Semiannual Report. The auditors added $4
  million in unsupported costs over what was previously
  reported, bringing total questioned costs to $33.4
  million, or 9.2 percent of the $363 million total costs
  claimed by the contractor for the three year period ending
  December 31, 2002. Raytheon Polar Services is NSF’s
  primary support contractor for the United States Antarctic
  Program. (p. 15)

• OIG auditors found that over a 5-year period, approximately
  47 percent of the 151,000 final and annual reports required
  by the terms and conditions of NSF’s grants and
  cooperative agreements were submitted late or not at all.
  Of the 43,000 final project reports, 8 percent were never
  submitted, and 53 percent were submitted, on average, 5
  months late. Of the 108,000 annual progress reports, 42
  percent were never submitted. (p. 16)



                                                                5
Executive Summary




                    • An audit of awards made by NSF, NASA, EPA, and USDA to establish
                      an endowment fund for the United States-Mexico Foundation for
                      Science (USMFS) found that conditions for the funding stipulated by
                      Congress were not included in the grant agreements. Consequently,
                      the USMFS did not obtain $5 million or 45 percent of matching
                      endowment contributions from Mexico or implement adequate financial
                      controls to account for and administer almost $11 million of U.S.
                      endowment funds. (p. 17)

                    • The investigation of an NSF award to a large city school district was
                      resolved with the execution of settlement and compliance agreements
                      and a $150,000 reduction in a current award to the district. The case
                      arose when OIG attempted to audit the district and identified a number
                      of significant issues including the district’s inability or unwillingness to
                      provide adequate documentation to support the $13.8 million in costs
                      claimed and $21 million in claimed cost sharing. (p. 27)

                    • NSF declined to debar its former Travel Card Program Manager who
                      pled guilty to the willful and unlawful destruction of an official government
                      record, a felony. The manager misused her own government travel
                      card on approximately four dozen occasions, and concealed her
                      misuse from an OIG audit by deleting information from official agency
                      records. (p. 28)

                    • An EPSCoR institution in Oklahoma voluntarily suspended work with
                      animals under an REU award and ultimately changed the scope of the
                      project to eliminate the animal work when it was unable to achieve
                      compliance with NSF policy. The institution failed to self-identify its
                      work with humans and animals in the proposal, as required, despite
                      its use of both as research subjects. (p. 35)




             6
                                              OIG Management Activities




Congressional Testimony
    The Inspector General testified before the U.S. House of
Representatives, Committee on Science, Subcommittee on
Research on March 9, 2005. Dr. Boesz told Congress that she
considers the two most important management challenges facing
NSF to be strategic management of NSF resources and
improved financial performance.

     The IG said that strategic management of NSF administrative
resources, especially human capital, remains a pressing issue.
In 2002, NSF launched a multi-year business analysis effort to
address this challenge, yet is still engaged in the development of
a workforce plan. While NSF’s workload has rapidly increased
over the past few years, the agency has not identified the amount
of staffing and other administrative resources needed to address
this growing disparity. NSF’s critical staffing shortage is evident
in the agency’s management and oversight of its large facility
portfolio. It is also apparent by the lack of resources that have
been assigned to carry out many of NSF’s general post-award
monitoring responsibilities.

       The second challenge Dr. Boesz discussed was improved               HIGHLIGHTS
financial performance through better post-award administration.
For four consecutive years auditors have found that NSF’s              Congressional
monitoring of grantee institutions has significant weaknesses.         Testimony            7
Primarily, NSF’s current program is not comprehensive enough
for it to be effective in identifying and resolving issues. She said   Legislation Review   8
that an effective monitoring program would ensure that awardees
are complying with federal requirements, making adequate               Outreach             9
progress toward achieving research objectives, and charging


                                                                       7
OIG Management
       Activities



                    allowable costs. Further, a recent audit by OIG found that many research
                    reports, which are used to monitor progress, are submitted significantly late
                    or not at all.

                         While NSF has taken steps over the past 3 years to improve its post-
                    award administration, progress is slow and much remains to be done. While
                    new resources would be desirable, Dr. Boesz testified that she believed
                    that realignment of certain management priorities would ease some of the
                    burden. Just as the scientific enterprise has changed over the past few
                    decades, NSF must address its changing administrative challenges by
                    reassessing how it conducts its business. In an environment of increased
                    accountability and stewardship of limited federal funds, effective award
                    administration is essential.

                          On February 17, 2005, Dr. Boesz submitted a statement for the record
                    before the U.S. Senate Committee on Appropriations. In addition to the two
                    challenges emphasized before the House Subcommittee, the statement
                    discussed in more detail NSF’s challenge in managing large infrastructure
                    projects. Although gradual progress is being made, the Large Facility
                    Projects Office that was created by NSF to implement a viable management
                    and oversight program for these projects, faces a number of obstacles. To
                    enable this Office to develop a more influential role, NSF’s senior
                    management must clearly recognize and champion its oversight
                    responsibility, and provide it the authority and resources necessary to handle
                    it. Lacking formal influence and staff, the role of the Office is likely to remain
                    primarily advisory and therefore less effective than it could be.

                    Legislation Review

                    Statutory and Regulatory Review

                          The Inspector General Act of 1978, as amended, mandates that our
                    office monitor and review legislative and regulatory proposals for their impact
                    on the Office of Inspector General (OIG) and the National Science
                    Foundation’s (NSF) programs and operations. We perform these tasks for
                    the purpose of providing leadership in activities that are designed to promote
                    economy, effectiveness, efficiency, and the prevention of fraud, waste, abuse
                    and mismanagement. We also keep Congress and NSF management
                    informed of problems and monitor legal issues that have a broad effect on
                    the Inspector General community. During this reporting period, we reviewed
                    8 bills that either affected NSF, OIG, or both. The following legislation merits
                    discussion in this section.



            8
                                                          OIG Semiannual Report     March 2005




Program Fraud Civil Remedies Act of 1986
(PFCRA)

     A legislative priority that we support is amending PFCRA to include NSF
and the 26 other DFE agencies that are currently excluded from participation
under the Act’s enforcement provisions. The Office of Inspector General’s
concern related to PFCRA involves the ability of “Designated Federal Entity”
(DFE) agencies to fully implement their statutory mission to prevent fraud,
waste and abuse by availing themselves of the enforcement capabilities
contained within the Act. In fact, we have raised the issue of NSF’s inclusion
under the PFCRA legislation in several prior semi-annual reports.

     PFCRA sets forth administrative procedures that address allegations of
program fraud when the claims are less than $150,000.00. Currently, the
executive departments, military departments, establishments, as defined under
the Inspector General Act of 1978, and the United States Postal Service, are
the only agencies permitted to proceed under PFCRA. NSF and other DFE
agencies with Inspectors Generals appointed by agency heads are not included.

     We believe that using the enforcement provisions of PFCRA will enhance
NSF and other DFE agency recoveries in instances of fraud that fall below
PFCRA’s jurisdictional threshold of $150,000.00. In short, including NSF
and other DFE agencies under PFCRA will further the OIG community’s
statutory mission to deter fraud, waste and abuse.

Outreach
     As part our ongoing efforts to prevent
and detect fraud, waste, and abuse, we
seek opportunities to communicate face
to face with the communities we serve in
order to inform them about the OIG’s
mission and work, explain NSF’s policies
and regulations, and learn about the
challenges that researchers face in trying
to achieve compliance with federal
requirements. Our community includes the
national and international research           National Science Board members and the Inspector General
communities, other Federal agencies and       tour a border crossing in Texas to observe how technology
OIGs, and NSF.                                is being applied to improve homeland security.




                                                                                      9
OIG Management
       Activities




                    Working with the Research Community

                         OIG Staff Present at Professional Conferences and Universities.
                    Organizations within the national and international research communities
                    continue to voice questions about the many complex issues associated with
                    research misconduct, award administration, and regulatory compliance. OIG
                    staff members were invited to attend and present at a wide range of
                    conferences and events held by institutions and associations such as the
                    Society for Research Administrators, the Conference on Institutional Conflicts
                    of Interest, the National Council of University Research Administrators and
                    the American Association for the Advancement of Science. In their
                    presentations, OIG staff contributed to the community’s effort to examine these
                    issues, explained the processes in place to correct problems, and encouraged
                    consideration of proactive measures to prevent their recurrence.

                         University research administrators make requests for OIG staff to provide
                    training or answer questions from university officials involved in applying for
                    and administering NSF awards, conducting supported research, and pursuing
                    university-level inquiries into allegations of research misconduct. During this
                    semiannual period, we visited eight universities for such presentations. In
                    each of these forums, our staff engaged a broad spectrum of the research
                    community in both formal and informal discussions. Among the topics of
                    discussion were identification and prevention of fraud; research misconduct
                    (plagiarism, fabrication, and falsification); cost-sharing and time/effort
                    documentation and reporting; conflicts of interests; and the establishment of
                    compliance programs and committees at research institutions.

                    Working with the Federal Community

                         OIG Hosts the 2004 Grants Fraud Workshop. During this semiannual
                    period, we organized and hosted a successful one-day Grant Fraud Workshop
                    that was attended by 80 individuals from the Inspector General communities.
                    Presentations were given by 10 representatives from 6 agencies. Case
                    studies on successful grant fraud investigations and prosecutions were
                    presented and discussed at length. The workshop gave participants an
                    opportunity to make new professional acquaintances and discuss best
                    practices currently in use. Our survey of participants indicated that they found
                    the workshop relevant and valuable.

                         Participation on PCIE/ECIE Committees. OIG continues to lead the
                    PCIE/ECIE Misconduct in Research Working Group (MIRWG), which is
                    chaired by NSF’s Inspector General. The MIRWG met during this period to



           10
                                                          OIG Semiannual Report    March 2005




review and update the status of agency efforts to establish
                                                                  Office of Investigations
policies addressing research misconduct. Many agencies now        Undergoes Successful Peer
have active policies regarding this issue. The MIRWG also         Review
reviewed case studies of research misconduct that constituted
fraud, which OIG representatives found helpful in understanding   NSF OIG has played a leading role
                                                                  in a working group designed to
the potential link between research misconduct and fraud. The
                                                                  assist in the development of
MIRWG finalized its Assessment Checklist, which OIGs may          effective policies and procedures
use to assess if their respective agencies are complying with     for voluntary investigative peer
the federal policy and investigative standards when conducting    review. In October 2004, our Office
their own research misconduct investigations.                     of Investigations was peer
                                                                  reviewed by a team from the Office
                                                                  of Inspector General of the
     The Inspector General serves as an elected member of         Government Printing Office. Over
the Executive Council of IGs, a steering committee for PCIE/      a two-week period, the peer review
ECIE policies and activities. OIG staff continue to actively      team evaluated the Office of
participate in the PCIE/ECIE Investigations Committee, the        Investigations’ internal safeguards
                                                                  and management procedures.
PCIE/ECIE Inspections and Evaluation Committee, and the
                                                                  The peer review was conducted
PCIE GPRA Roundtable, which is a forum for discussion of          according to the Qualitative
the integration of GPRA requirements into the audit function.     Assessment Review Guidelines
                                                                  for federal Offices of Inspector
     Audit Community Activities. NSF OIG audit staff is           General. The team concluded that
                                                                  the system of internal safeguards
participating in the Comptroller General’s Domestic Grant
                                                                  and management procedures for
Working Group with auditors from Federal agencies, states,        the investigative function of NSF
and a local agency to develop a guide for improving               OIG is in full compliance with the
accountability for grant funds. The final document will convey    quality standards and guidelines
that accountability for dollars and results needs to be           established by the PCIE and ECIE.
considered throughout the grant process, from planning a grant
program through managing the grant and evaluation of
program results.

      Audit staff is also actively involved with the PCIE/ECIE Federal Audit
Executive Council, which discusses and coordinates the implementation of
Federal initiatives that affect the policy and operations of OIG audit
organizations. OIG auditors work with the Financial Statement Audit Network,
a committee of the Federal Audit Executive Council, which conducts a forum
to discuss key issues concerning the preparation and audit of federal financial
statements.

    OIG staff serve as members of the Working Group on Stewardship and
Accountability sponsored by the National Science and Technology Council
Research Business Models Subcommittee. This working group is addressing
ways to streamline subrecipient monitoring and improve financial performance.




                                                                                      11
OIG Management
       Activities




                    Working with NSF

                          OIG/NSF Liaison Program. OIG has continued its efforts to establish
                    and maintain effective communication and professional relationships with the
                    individual directorates and offices within NSF. Each NSF office has two OIG
                    liaisons, generally one investigator and one auditor. During this semi-annual
                    period, OIG requested an opportunity to present to each office. In addition,
                    for the first time OIG provided a voluntary survey to Directors, Division Directors,
                    and other staff principals to evaluate the effectiveness of our liaison program.
                    We received replies from over 90% of those surveyed. The overall results of
                    the survey have been very positive. Of particular note, 96% of our NSF
                    colleagues know and are comfortable communicating with their OIG liaisons,
                    and 92% understand both the IG mission and how it supports the NSF mission.
                    OIG is committed to building strong lines of communication with the agency
                    and plans to use information from the survey to identify opportunities to
                    improve.

                         OIG Staff participated in several NSF sponsored events:

                         • NSF Regional Grants Conference at Washington University. OIG
                           auditors and investigators traveled to Washington University in St. Louis
                           to discuss our activities with awardees from the region, and what is
                           reviewed during a financial and compliance audit.

                         • Conflict-of-Interest Briefings. At the mandatory conflict of interest
                           briefings conducted approximately twice per month by NSF’s
                           Designated Agency Ethics Official, we continue to provide a brief
                           overview of the OIG mission and responsibilities; our ongoing liaison
                           program with NSF; and the manner by which employees can bring
                           matters to our attention.

                         • Program Manager Seminar Briefings. OIG staff continue to
                           participate as Resource Personnel in the NSF Program Manager
                           Seminar, which provides new NSF staff with detailed information about
                           the Foundation and its activities.




           12
                       OIG FY 2004 Performance Report




     This section describes OIG’s accomplishments towards the
three goals set forth in the OIG Performance Plan for 2004:

     1. Increase OIG impact on NSF’s effectiveness and
        efficiency.

     2. Safeguard the integrity of NSF programs and resources.

     3. Utilize OIG resources effectively and efficiently.

     Under each of these goals, we identified several strategies
for achieving the goal. For each strategy, we listed specific actions
that we planned to complete during the performance period, which
ran from April 1, 2004, to March 31, 2005.

Goal 1: Increase OIG Impact on NSF’s Effectiveness and
        Efficiency                                                           HIGHLIGHTS

    1. Identify and implement approaches to improve audit               Goal 1:
product quality and timeliness.                                         Increase OIG Impact on
                                                                        NSF’s Effectiveness
                                                                        and Efficiency        39
     • Develop and implement a tool to assess effectiveness of
       the story-conferencing process as a means to improve
                                                                        Goal 2:
       audit product quality and timeliness.                            Safeguard the Integrity
                                                                        of NSF Programs and
     • Obtain a consultant with Government Auditing Standards           Resources               43
       expertise to review and comment on the draft audit guide
       for contract auditors; revise guide as necessary and issue.      Goal 3:
                                                                        Utilize OIG Resources
     • Assess on-the-job training needs of current audit staff and      Effectively and
       identify job enrichment training opportunities to broaden        Efficiently           46
       auditor experience with various types of NSF audit work.


                                                                        39
      OIG FY 2004
Performance Report



                          • Update and streamline current contract audit monitoring manuals.

                          • Develop table of contents and milestones to finalize Office of Audit
                            audit quality control standards and procedures manual.

                          • Assess results of employee survey and develop appropriate steps to
                            address concerns from auditors.

                          The OIG made progress towards achieving our goal of improving audit
                     timeliness and quality. We used a team-based auditing approach that relies
                     on formal story-conferences between auditors and managers at key points in
                     an audit, thereby facilitating improved communication that results in timelier,
                     higher quality audit reports. Since FY 2003, the Office of Audit (OA) has used
                     the team-based auditing approach on high-risk audits conducted by internal
                     audit staff as well as independent public accounting (IPA) staff that conduct
                     audits under contract with OIG. To assess the effectiveness and efficiency of
                     this process, we developed a questionnaire in FY 2005, which will be
                     incorporated into our Knowledge Management System (KMS) database. At
                     the end of each audit, every audit team member will receive a prompt to
                     complete the questionnaire and the results will be sent to audit management
                     for appropriate action.

                          The OA retained a consultant with expertise in Government Auditing
                     Standards to review and comment on our draft audit guide for audits performed
                     by IPA firms under contract with OIG. This guide will present the team-based
                     auditing concepts and provide detailed guidance for contractors on their
                     implementation. We also made significant progress in developing policy
                     documents focused on audit quality assurance procedures and standards.
                     OA updated and streamlined procedures manuals for OIG audit staff with
                     responsibility for monitoring contract audits to ensure audit quality and
                     timeliness.

                           In addition, we added four new sections to our audit quality control policy
                     pertaining to OA standards and expectations regarding independence,
                     independent report referencing, internal quality control, and job rotation. In
                     particular, the job rotation policy provides audit staff with job enrichment training
                     opportunities within OA aimed at broadening their experience by performing
                     different types of NSF audit work. In response to last year’s employee survey,
                     we began documenting and distributing the minutes of weekly senior audit
                     manager meetings to ensure that issues of common concern and importance
                     are regularly communicated to all audit staff. Together, these policies and
                     procedures should ensure a more consistent approach to the conduct of audits.

                          In 2004, we developed measures to compare our actual accomplishments
                     to specific performance objectives. In 2005, we compiled baseline data to


            40
                                                           OIG Semiannual Report    March 2005




assist us in setting future performance and productivity targets. The baseline
data is maintained in our KMS system and includes information such as
milestones and scheduling, budgeted and actual hours, monetary and non-
monetary recommendations, and the status of the resolution of those audit
recommendations.

2. Enhance communication and collaboration between audit and investigation,
ensuring that multi-disciplinary approaches are used, where appropriate, to
address NSF issues.

    • Share information about audit and investigative activities at OIG all-
      staff meetings.

    • Finalize OIG policy on audit/investigative referrals; ensure its
      implementation.

    • Continue to provide audit support for the contractual provision of audit
      services in support of investigative activities.

    • Continue to meet regularly with investigators to discuss cross-cutting
      issues and means of identifying mutually beneficial issues of
      importance.

     In 2005, the OA shared information on audit activities at all-staff meetings
and continued to provide audit support for contractual audit services in support
of investigative activities. In addition, OA contributed to the development of
an OIG policy on audit and investigative referrals and continued to meet with
investigators formally and informally to discuss issues of mutual interest and
the status of work resulting from both investigative and audit referrals.

3. Strengthen our focus by refining our approaches for selecting work and
setting priorities.

    • Implement the Office of Audit planning policy for audits.

    • Create permanent files of information gathered during audit planning
      efforts.

    • Finalize automated audit report trend analysis process; upload historic
      audit report data into KMS; develop standard trend analysis reports.

    • Develop a process for conducting future automated trend analysis.

    • Continue to refine our Agency funding analysis by standardizing



                                                                                      41
      OIG FY 2004
Performance Report




                            techniques and data reports obtained annually for use in assessing
                            risk of NSF’s award portfolio.

                           OA finalized an audit planning guide to establish a formal methodology
                     for analyzing and assessing risk, and developing and ranking audit proposals
                     based on those assessments. We then select audits to perform based on
                     their priority, their technical requirements, and the availability of requisite staff.
                     This new process was used for the first time in the development of the FY
                     2005 Annual Audit Plan. The Plan was completed on schedule and presented
                     to the National Science Board at its October 2004 meeting.

                           Over the past 12 months, we continued to upgrade an automated process
                     for conducting trend analysis of historic audit data. Currently, all audit findings
                     are coded according to type of finding, cost category (e.g., payroll, travel,
                     equipment), and finding condition when entered in KMS. Categorizing past
                     findings helps inform our audit planning process and facilitates the measuring
                     and reporting of audit issues. We continued to use KMS to track audit
                     milestones and the time staff devote to each audit so that future audits are
                     based on realistic estimates of the staffing resources that will be needed to
                     complete them. In last year’s audit planning cycle, we created permanent
                     files of past and present audit proposals and added an appendix to our
                     planning guide that provides links to on-line sources of audit planning
                     information. Together, these efforts should ensure a more robust and efficient
                     audit planning process.

                     4. Perform outreach regarding effectiveness and efficiency issues.

                          • Document execution of outreach policy in KMS outreach and time-
                            tracking modules.

                          • Create a library of information gathered from our outreach efforts (e.g.,
                            testimony, minutes of meetings with NSF officials or advisory
                            committee meetings) and make use of this information during the audit
                            planning process.

                          The outreach plan developed by OA includes three strategies: 1) gaining
                     a better understanding of NSF activities and operations; 2) monitoring audit-
                     related changes in the professional audit and OIG communities; and 3)
                     educating NSF, its stakeholders, and the external community on our audit
                     issues and activities. In 2005, OA staff members were invited to speak at an
                     NSF-sponsored regional grants conference and a conference of university
                     research administrators. Staff also participated in several NSF-sponsored
                     program manager seminars to learn more about NSF’s many programs,
                     explain the OIG’s role and responsibilities to the new program officers, and to


            42
                                                           OIG Semiannual Report    March 2005




act as resource advisors, providing a ready contact within OIG. OA staff were
involved in a number of federal community initiatives aimed at solving problems
related to improper payments, Single Audit quality, federal financial statements
and IT security, and grant oversight. OA participates in the OIG Liaison
Program, which communicates information about OIG activities and reports
to senior agency managers, allows a constructive discussion of NSF and OIG
concerns, and provides a point of contact should they wish to communicate
further with OIG. We documented these and other outreach efforts in the KMS
outreach module and while we did not create a library of information gathered
from our outreach efforts, the information gathered during these activities was
formally communicated to staff at our monthly “all-hands” meeting.

Goal 2: Safeguard the Integrity of NSF Programs and Resources

1. Identify ways to improve case product quality and timeliness.

    • Ensure investigations are consistent with PCIE/ECIE quality standards
      for investigations.

    • Ensure consistency of investigative efforts with Investigations Manual.

    • Make high-quality oral and written presentations to prosecutors or
      agency decision makers.
    • Assess timeliness and appropriateness of case milestones.

    • Ensure high-quality referral of audit issues arising from investigations.

    • Maintain high-quality training for investigators.

    • Assess results-based performance measures for applicability to OIG
      investigations activities in 2004.

    • Perform a quality check for each investigation.

     The Office of Investigations (OI) successfully employed the strategies
described above to meet the goal of improving case quality and timeliness.
We continued our co-leadership role in preparing the Executive Council on
Integrity and Efficiency (ECIE) community for investigative peer review. NSF
OIG was the first ECIE investigations office to undergo peer review based on
the new PCIE/ECIE quality standards for investigations. The review concluded
that OI was in full compliance with the applicable investigative standards. We
implemented improvements in our training system and file security suggested
by the review team. In our continuing effort to refine and improve our processes,
we modified several sections of our Investigations Manual.


                                                                                      43
      OIG FY 2004
Performance Report




                           Each investigative case was subjected to both quality control and quality
                     assurance reviews to ensure that 1) they were performed in accordance with
                     our Investigations Manual, and 2) each Report of Investigation or Management
                     Implication Report addressed the relevant elements. These reviews also
                     verified that cases with underlying audit issues were referred to the OA for
                     audit consideration. Several referrals were subsequently included in the audit
                     plan. We successfully completed site visits related to both research
                     misconduct and criminal/civil cases and increased the number of cases
                     referred to the Department of Justice for prosecution or to NSF management
                     for adjudication. Included among these cases, was the first resolution of an
                     investigation by means of a Settlement Agreement and Compliance Plan
                     cosigned by the agency, OIG, and the subject institution. We worked closely
                     with our contract forensic auditors to make certain that accurate and complete
                     financial information was identified, analyzed, and incorporated into the
                     investigative product. These efforts have significantly increased our abilities
                     to detect fraud and to successfully present cases for prosecution to the
                     Department of Justice.

                          Each case was monitored for timely completion through the milestones
                     in OIG’s KMS. Several new milestones were added to the system this year,
                     and others were modified to improve our tracking capability and assist in the
                     development of new procedures for tracking case processing statistics by
                     individual investigator. These statistics will form the basis for producing
                     meaningful results-based performance measures.

                          At the beginning of this performance year, we ensured that all members
                     of OI completed an Individual Development Plan and we worked throughout
                     the year to meet both individual and group training objectives to increase
                     both individual and office-wide skill levels. We have implemented an electronic
                     mechanism for tracking planned and completed training to make our efforts
                     more efficient. We continue to survey staff participating in training and other
                     OI offices to ensure our training is of the highest quality available.

                     2. Strengthen proactive activities (outreach, reviews) in integrity matters.

                         • Ensure information is accessible to public and NSF.

                         • Ensure materials are accurate and up-to-date.

                         • Develop elements of a Compliance program.

                         • Emphasize OIG liaison activity.

                         • Convene one Grant Fraud Working Group meeting.


            44
                                                           OIG Semiannual Report    March 2005




    • Analyze closed cases to assess areas for proactive reviews.

    • Monitor and assess the effect of proactive activities on case processing
      time, priorities, and allegation assessment.

    • Ensure all FOIA/PA requests are responded to in a timely manner.

     The Inspector General Act identifies the detection and prevention of fraud
and abuse as primary responsibilities of an Office of Inspector General. In
response to this charge, we conduct proactive investigative reviews as time
permits and have an active outreach program to NSF and the communities it
serves. Through the use of OIG’s web site, we made current and relevant
information available to our various audiences, including NSF staff, the National
Science Board, the Congress, and the research community at large. We
also provide information to the public in response to Freedom of Information
Act requests. This year we again responded to each request within the time
requirements identified in the statute, and we ensured timely responses by
modifying our electronic tracking system.

      We participated in numerous NSF events such as program management
seminars, conflict of interest briefings, and regional grants seminars, sending
knowledgeable OIG representatives to discuss issues of interest and answer
questions. OIG staff members were also assigned as liaisons to NSF offices
to ensure good communication between OIG and the agency’s directorates.
A survey to determine the effectiveness of OIG liaison efforts indicated that
the content, format, and frequency of liaison events were appropriate and well
received, and that NSF managers were comfortable communicating with OIG
liaisons.

     We conducted the second annual Grant Fraud Investigation’s Training
Program for PCIE/ECIE investigators, which was attended by 80 staff from
the IG community. Ten representatives from six IG offices gave presentations
that focused on case studies of successful grant fraud investigations and
prosecutions. Our survey of participants indicated that they found the workshop
extremely useful both for the information that was shared and for the
strengthening of professional networks. The workshops have become so
popular that we are working with the Inspector General Criminal Investigator
Academy to accommodate all who want to attend.

     This year, we expanded our efforts to develop and disseminate
information about effective compliance programs. For example, we introduced
new presentations at professional meetings on compliance programs based
on the United States Sentencing Commission Federal Sentencing Guidelines,
and we developed a new poster that was displayed at a recent National Science


                                                                                      45
      OIG FY 2004
Performance Report




                     Board Meeting. The poster will also be exhibited at professional meetings to
                     prompt discussion about the use of compliance plans in the resolution of
                     particular cases. We made effective use of our compliance initiative to resolve
                     a significant case with the execution of a Settlement Agreement and
                     Compliance Plan.

                          Our efforts to conduct proactive reviews this year were curtailed because
                     we experienced a significant increase in both the number and complexity of
                     allegations. We did not have adequate resources to devote to this important
                     task or to complete a planned data-mining project. Nevertheless we are in
                     the final stages of completing three proactive reviews initiated in previous
                     years that are likely to result in recommendations to NSF for management
                     improvements.

                     Goal 3: Utilize OIG Resources Effectively and Efficiently

                     1. Utilize professional expertise and talents of all OIG staff.

                          • Conduct annual survey of OIG staff to obtain its views on the
                            effectiveness of:

                                 – OIG use of its resources in personnel, equipment, technology
                                   and contracting,
                                 – Management planning, policies, and procedures,
                                 – Internal communications and coordination, and
                                 – OIG impact on NSF.

                          • Analyze survey results and develop corrective actions for the problems
                            identified.

                          • Continue the use of the team approach in brainstorming and resolving
                            OIG internal management issues and in developing OIG activities.

                          • Complete development of an integrated Knowledge Management
                            System within the OIG.

                          • Develop in-house technical expertise for maintaining KMS.

                          • Complete a KMS users manual for OIG staff.

                         Approximately 70 percent of OIG staff responded to the annual employee
                     survey this year, the most ever. We view this survey as an effective means for
                     measuring how well we are using the staff’s professional expertise and whether
                     we are providing our employees with the guidance and resources needed to


            46
                                                           OIG Semiannual Report   March 2005




do their jobs. Although there is still room for improvement in some areas,
overall ratings increased by about five percentage points from last year. More
importantly, some of the areas that earlier surveys had indicated were
significant problems received considerably higher ratings. The most
improvement occurred in issues related to cooperation among OIG units, the
utilization of contractors, and communications between the various units within
OIG. We believe that the progress is due at least in part to a concerted effort
by the office to address these issues. We used the annual OIG retreat and
other all-hands meetings to help define the issues, reach a common
understanding, and achieve a consensus on actions to improve our
performance. Specific areas in which the staff perceived relatively high OIG
effectiveness included technology support within the office, OIG’s impact in
helping to solve important agency problems, the guidance provided in OIG
policies and procedures, the utilization of OIG staff skills and abilities,
communications within OIG for keeping staff informed, and the use of
contractors by OIG.

       OIG continued to make effective use of the team approach in internal
management issues and in OIG activities. We used teams to assess the
annual survey, organize the annual OIG retreat, advise on the development of
internal OIG policies, and serve as OIG liaisons to the directorates and offices
in NSF. Most investigations are conducted by teams composed of
investigators, attorneys, scientists, and/or other appropriate OIG staff
members. Ad hoc staff groups are often formed to produce briefings,
congressional testimony, or special reports, and as indicated above, most
audits are conducted using a team-based auditing approach.

        The integrated KMS made significant strides during the past year, but
some problems persisted and we fell short of our goal to finish its development.
In many cases, as more staff members became regular users, we identified
additional functions or enhancements to build into the system to make it more
robust in meeting OIG data management and tracking needs. The additional
demands on the system, particularly during the semiannual reporting period,
created processing delays and other technological issues that need to be
resolved. KMS has advanced our data analysis beyond the disaggregated
and obsolete stovepipe systems it replaced and we are continuing to refine it.
This year’s enhancements included modules for managing FOIA requests,
individual development plans, and OIG subpoenas, as well as strengthening
the modules for managing and tracking audits, investigations, referrals,
training, outreach, and other activities. We hired a second IT specialist for
the office, and his primary responsibility is to develop in-house expertise for
administering and maintaining KMS. We completed KMS users’ manuals for
investigators and auditors, who represent the bulk of the system’s users.



                                                                                     47
      OIG FY 2004
Performance Report




                     2. Strengthen staff recruitment, development, and training.

                          • Assess results of pilot test for an office-wide process for individual
                            development plans and establish a permanent IDP process within OIG.

                          • Ensure that all OIG staff meet OIG training requirements.

                          • Revise individual performance appraisal forms to link the critical
                            elements to the OIG Performance Plan.

                          • Update auditor and management analyst position descriptions.

                          • Develop a core audit training program and core audit competencies.

                             We evaluated the results of an office-wide pilot test of individual
                     development plans and decided to implement them on a permanent basis.
                     They are now synchronized with the annual performance appraisal process
                     for OIG employees. All office staff members met or exceeded OIG’s annual
                     training requirements, and we revised the employee appraisal forms to link
                     them more closely to the OIG Performance Plan. We also worked with NSF
                     to modify our SES appraisal forms to conform to new OPM requirements.
                     We achieved a provisional certification for this year, and we have further revised
                     the appraisals for resubmission to OPM for permanent certification. Finally a
                     team from OA is reviewing core audit competencies that will serve as a
                     foundation for developing an audit training regimen, and updated position
                     descriptions.

                     3. Improve communication and collaboration within OIG.

                          • Develop an intra-office referral policy.

                          • Provide timely information exchange and referrals between the audit
                            and investigation units.

                          • Share information about audit and investigative activities at all-staff
                            meetings.

                          We formed a committee with representatives from all the units and drafted
                     a policy to improve coordination, informal consultations, and referrals within
                     the office. The policy was approved by senior management and issued in
                     October 2004. We believe that it has been instrumental, along with other
                     actions taken within the office, in improving the working relations among our
                     units and fostering an environment conducive to sharing information and



            48
                                                           OIG Semiannual Report    March 2005




expertise, referring matters that may be of interest to another unit, and working
more collaboratively on issues that concern more than one unit. Feedback
from the OIG employee survey indicates that the relationships between
investigators and auditors, in particular, have continued to improve. At almost
all our monthly all-hands meetings, either investigators, auditors or
administrative staff discuss a significant project. These exchanges have been
effective in improving mutual understanding of the roles and concerns of each
of the various units.

4. Ensure effective external communications and consultation.

    • Produce timely external reports on OIG results and issues.

    • Provide testimony and other requested information to congressional
      committees.

    • Provide briefings to consult with the NSB, Congress, OMB, NSF, and
      others regarding OIG plans, priorities, and progress.

    • Issue two OIG newsletters by e-mail.

    • Update NSF leadership regularly on OIG activities and concerns.

    • Collaborate with federal and international agencies to advance
      common audit, investigative, and management goals.

    • Provide leadership and active participation in the IG community.

      The OIG’s Semiannual Reports to the Congress, budget submissions to
the Office of Management and Budget and to the Congress, Management
Letter to NSF, annual Performance Report, and Management Challenges Letter
were designed to produce timely information on OIG findings and concerns to
key stakeholders. We also issued two electronic OIG Newsletters to a broad
audience in the federal government and research communities. The IG testified
before the House of Representatives Committee on Science Subcommittee
on Research and provided all information requested by committee members
and staff. Her testimony focused on investigative and audit activities, as well
as significant management challenges facing NSF. Our staff presented regular
briefings on OIG activities to the Audit and Oversight Committee of the National
Science Board. The subjects included the results of the annual audit of NSF’s
financial statements, the findings and recommendations of several
performance audits, and the OIG budget submission. The Inspector General
and Deputy Inspector General regularly briefed the NSF Director and Deputy



                                                                                      49
      OIG FY 2004
Performance Report




                     Director on recent, ongoing, and planned OIG activities, as well as other
                     matters concerning the management and operations of the agency.

                           As part of our continuing efforts to prevent and detect fraud, waste, and
                     abuse, we regularly reached out to domestic and international communities
                     to inform them both about our work and about their responsibilities in ensuring
                     the integrity and effectiveness of research activities. Our office played a
                     leadership role in establishing a dialog among international officials engaged
                     in research compliance. The Inspector General co-hosted a workshop,
                     Accountability in Science Research Funding, with the Director General of the
                     Science Foundation Ireland, in Dublin, Ireland, in June 2004. The purpose of
                     the meetings, which were attended by representatives from 14 countries, was
                     to discuss methods for monitoring and auditing science and engineering
                     projects and to share best practices among the participating organizations.
                     Our Associate Inspector General for Investigations was a keynote speaker at
                     a meeting of the Australian Research Management Society in Australia, where
                     she discussed establishing compliance programs as a means to correct
                     problems found during the course of investigations.

                          OIG staff members were also invited to speak at a wide range of
                     conferences held by institutions and associations and participated on several
                     federal committees and task forces, including the Office of Management and
                     Budget (OMB) directed Federal Workgroup on Erroneous/Improper
                     Payments. As the primary attendee from the IG community, the NSF OIG
                     representative provided a perspective on what actions the IG community is
                     planning to take on evaluating agency actions to comply with this Act. We
                     also worked closely with other OIGs and federal agencies on joint
                     investigations, and our investigators provided briefings to the IG community
                     following our successful resolution of a case involving federal travel card abuse,
                     which has been a widespread problem in the federal government.

                           We attended the first meeting of the Research Business Models working
                     group on subrecipient monitoring, sponsored by the National Science and
                     Technology Council’s Committee on Science. The group is evaluating current
                     federal guidance on subrecipient monitoring contained in OMB Circular A-
                     133 and ways to simplify or eliminate procedures for overseeing grant funds
                     passed through to other organizations. NSF OIG has also played a leading
                     role in an Executive Council on Integrity and Efficiency (ECIE) working group
                     that is developing investigative peer reviews. OIG staff also participated in
                     updating the five-year PCIE/ECIE Strategic Framework. We continued to
                     work with other federal agencies and OIGs as they implemented policies and
                     procedures for investigating allegations of research misconduct. As
                     Chairperson of the PCIE/ECIE Misconduct in Research Working Group, the
                     NSF Inspector General led efforts to educate the community about this issue.


            50
                                                   Audits
                                                                     &               Reviews
                                                         To view reports in their entirety, please visit
                                                               www.inside.nsf.gov/oig/start.htm.




Significant Reports
     The following audit reports issued in the past six months
contribute additional information about the challenges NSF faces
in improving its post-award monitoring program, and underscore
the need for prompt action on the part of the agency. Though
different in many respects, most of the problems cited below
would be mitigated if more attention were given to post-award
administration.

      An effective post-award monitoring program should ensure
that: awardees are complying with award terms and conditions
and federal regulations; adequate progress is being made toward
achieving the objectives and milestones of the funded research
project and; awardee expenditures listed on NSF’s financial
statements represent costs that are accurate and allowable.
While NSF has taken some steps over the past three years toward
establishing a risk-based program for post-award monitoring of                   HIGHLIGHTS
its grants, the audits discussed below suggest that more needs
to be done.
                                                                         Significant Reports               13

Fiscal Year 2004 Independent Auditors                                    Other Reports                     20
Issue Unqualified Opinion, Recognize
                                                                         A-133 Audit Reports               21
Need for Improved Award Oversight
                                                                         Corrected Actions
     In accordance with the Chief Financial Officer’s Act of 1990,       Prompted by
KPMG LLP conducted an audit of NSF’s financial statements                Previous Audits                   24
for Fiscal Year (FY) 2004 and issued another unqualified opinion
to NSF. However, the auditors identified post-award monitoring           Work in Progress                  25
as a reportable condition for the fourth consecutive year. The


                                                                         13
Audits & Reviews




                   auditors also identified a second reportable condition on NSF’s monitoring
                   of its largest contractors.

                        NSF funds over 10,000 new awards annually. At any point in time,
                   NSF is administering as many as 30,000 ongoing awards amounting to
                   more than $5 billion to support basic science and engineering research
                   and education. Assessing scientific progress and ensuring effective financial
                   and administrative oversight of these funds are critical elements in managing
                   NSF’s award programs. However, in FY 2004 the auditors found that NSF
                   must broaden its approach to award monitoring. Specifically: (1) NSF’s
                   current risk model for focusing its monitoring efforts does not adequately
                   capture all high-risk awardees; (2) NSF’s award-monitoring program does
                   not address procedures for both baseline and advanced monitoring
                   depending on the financial risk of the award; (3) NSF needs to provide a
                   detailed response to suggestions included in the report: Post Award
                   Monitoring Assessment prepared by a consultant under contract to the
                   agency; and (4) NSF needs to increase the resources dedicated to its post-
                   award monitoring efforts.

                        The independent auditor identified similar problems with NSF’s process
                   of monitoring the financial performance of its largest contractors who receive
                   advance payments. The auditors found that: (1) NSF does not adequately
                   review the public vouchers submitted by the contractors who receive advance
                   payments to ensure that the reported expenditures are proper and allowable
                   under the contracts; and (2) the contractors did not certify the public vouchers
                   as representing valid and authorized expenditures under the contract. Without
                   adequately performing such procedures, misstatements and unauthorized
                   expenditures of substantial amounts may go undetected. In FY 2004, NSF
                   acquired approximately $388 million in goods and services through outside
                   vendors, including an estimated $192 million or 57 percent paid through
                   advance payments to NSF’s three largest contractors for logistical and
                   support services for polar and ocean research.

                         In February, NSF submitted its proposed action plans to address the
                   six recommendations related to these reportable conditions. Unfortunately
                   the auditors could not accept NSF’s proposed corrective actions for five
                   recommendations because in general they did not identify specific
                   deliverables nor provide expected completion dates. One set of corrective
                   actions aimed at improving NSF’s risk-assessment process contained
                   enough specifics to be accepted. The OIG and the independent auditor will
                   continue working with NSF management to ensure these issues are resolved
                   in a timely manner.




          14
                                                                 OIG Semiannual Report     March 2005




$33 Million in Raytheon Polar Services Company
Costs Questioned
      At NSF’s request, the OIG contracted with the Defense Contract Audit
Agency (DCAA), to complete an audit of Raytheon Polar Services Company
(RPSC) that was discussed in an earlier Semiannual Report.1 The auditors
added $4 million in unsupported costs over what was previously reported,
bringing total questioned costs to $33.4 million, or 9.2 percent of the $363
million total costs claimed by the contractor for the three year period ending
December 31, 2002.

      Raytheon Polar Services is
NSF’s primary support contractor for
the United States Antarctic Program,
providing logistics and support
services valued at approximately
$1.172 billion over ten years. DCAA
had previously identified $29.2
million in improperly billed indirect
costs in its interim report issued in
September 2004. In completing its
audit, DCAA questioned an
additional $4 million of direct costs
and $52,000 of miscellaneous costs,
mostly related to the handling of a
petty cash fund located in New
Zealand, because RPSC did not                A worker at Admundsen-Scott South Pole station waves goodbye to
have documentation to show how the           an LC-130 aircraft as it departs with approximately 35 employees
costs were allowable or benefited the        who had “wintered over” at the bottom of the world.
                                             NSF/USAP Photo by Mark Buckley, RPSC (2001).
NSF contract.

      We recommended that NSF disallow these questioned costs and ensure
that Raytheon accurately classifies and records future overhead and general
and administrative costs in its accounting system. NSF also needs to ensure
that Raytheon establishes policies and procedures to: (1) preclude charges
over indirect cost ceilings; (2) routinely adjust claimed fringe benefit costs to
reflect actual costs rather than budgeted; (3) maintain adequate documentation
for claimed costs. These actions will ensure that any costs paid for the U.S.
Antarctic Program are proper and accurate. NSF states that they are reviewing
the recommendations.



1
    September 2004 Semiannual Report to Congress, p. 15



                                                                                              15
Audits & Reviews




                   Increased Commitment to Large Facility Project
                   Management Needed
                        A survey of NSF’s Large Facility Project (LFP) Office found that progress
                   toward issuing project management guidance and providing oversight of
                   current large facility projects has been slow, constrained by workload and
                   staffing issues. NSF established the LFP Office in 2003 to address
                   Congressional concerns and Office of Inspector General audit
                   recommendations regarding NSF’s management and oversight of its portfolio
                   of large facility projects. These projects represent a substantial portion of
                   NSF’s research portfolio and range from tens to hundreds of millions each.
                   While the LFP Office has made some progress, NSF has not provided it with
                   the appropriate institutional authority and staff resources necessary to
                   accomplish its intended oversight responsibility.

                        The LFP Office needs a high-level champion, such as the NSF Director,
                   to ensure organizational authority, and dedicated resources specific to the
                   Office’s oversight responsibilities. Further, the Office needs a more structured
                   management approach that includes a formal mission statement, specific
                   goals and measures, and a realistic staffing plan. Continued delay in
                   addressing large facility management puts NSF’s sizeable investments in
                   these important projects, and taxpayer dollars, at risk of potential
                   mismanagement and waste.


                   Many Required Project Reports Late or Missing
                        In another audit report that suggests opportunities for NSF to improve its
                   post-award administration activities, OIG auditors found that over a 5-year
                   period, approximately 47 percent of the 151,000 final and annual reports
                   required by the terms and conditions of NSF’s grants and cooperative
                   agreements were submitted late or not at all. Of the 43,000 final project
                   reports, 8 percent were never submitted, and 53 percent were submitted, on
                   average, 5 months late. Of the 108,000 annual progress reports, 42 percent
                   were never submitted. NSF collects information on the progress and results
                   of the awards it funds through these reports. They provide NSF with important
                   information while helping to enhance accountability for these federal funds.

                        Furthermore, although NSF has a policy that prohibits principal
                   investigators who have not submitted final project reports in the past from
                   receiving new awards, in 74 of 571 (13%) occurrences over the past 5 years
                   NSF provided delinquent PIs new award funding. In 29 of these occurrences,
                   it was not clear whether the automated system had failed or whether the
                   system’s controls had been manually overridden to allow new funding.


          16
                                                         OIG Semiannual Report   March 2005




     We recommended that NSF continue its plans to develop report tracking
and automated reminder systems to assist its awardees in submitting project
reports on time. Additionally, NSF should emphasize the importance of these
reports to awardees and monitor its automated award system to ensure manual
overrides occur only with written authorization and documentation. NSF
generally agreed with the recommendations and plans to have its corrective
actions implemented by July 2006.


Conditions for International Grant Omitted from
Agreements
      An audit of awards made by NSF and NASA, EPA, and USDA to establish
an endowment fund for the United States-Mexico Foundation for Science
(USMFS) found that conditions for the funding stipulated by Congress were
not included in the grant agreements. Consequently, the USMFS did not obtain
$5 million or 45 percent of matching endowment contributions from Mexico or
implement adequate financial controls to account for and administer almost
$11 million of U.S. endowment funds.

    Of the total $11 million of U.S. contributions, Mexico essentially matched
NSF’s contribution of $4 million along with some contributions made by other
agencies; however, Mexico has not matched the remaining $5 million of U.S.
funding, primarily from the other three agencies. While NSF’s initial funding
arrangement for the USMFS pre-dated the congressionally stipulated
conditions, NSF did not amend the agreement when Congress approved the
funding conditions and provided NSF with additional funds for USMFS. This
occurred because the legislative requirements were not communicated to
grant and program officials for inclusion in the award agreements. Further, as
a new, foreign-based awardee, the USMFS did not fully understand its
responsibilities related to complying with US grant provisions.

     We recommended that as the largest U.S. contributor, NSF bring these
concerns to the attention of the President’s Office of Science and Technology
Policy (OSTP) in order to facilitate a coordinated U.S. effort to secure
corrective actions on the part of the USMFS. While NSF responded favorably
to the audit report, it does not agree that it should take a leading role in
coordinating corrective actions for the entire U.S. Government since it has no
legal responsibility for oversight of other U.S. agencies. Nevertheless, NSF
does generally agree to implement the remaining audit recommendations to
secure at the USMFS, improved financial controls over NSF’s contributions.
OSTP is currently considering the audit recommendations.




                                                                                   17
Audits & Reviews




                   University’s Research Program Outgrows Grant
                   Administration
                        An audit of the University of South Dakota (USD) found that USD filed
                   late and sometimes inaccurate annual reports, inadequately managed some
                   subawards and subcontracts, and charged $142,593 of questioned costs
                   and cost sharing to NSF grants. Our review of an annual report filed by USD
                   found that the University overstated the level of effort staff contributed to that
                   project, the extent of technical progress and accomplishments that had been
                   achieved, and understated the difficulties the project faced in meeting its
                   intended objectives. Concerning USD’s management of subawards, we found
                   that work began before agreements were formalized, statements of work were
                   unclear, and several subrecipients did not submit all required reports.

                        Many of USD’s problems occurred because the resources allocated for
                   grant administration did not keep pace with the growth of its research program,
                   which doubled between FY 1998 and 2003. Also, USD did not have an
                   adequate understanding of its indirect cost rate structure and did not have a
                   formal policy or process to determine and appropriately classify direct and
                   indirect costs. During the audit, USD took steps to correct some of these
                   concerns. The University generally agreed with the findings related to late
                   annual reporting and management of subawards, but disputed most of the
                   questioned costs and cost sharing. Based on the information provided by
                   this audit NSF declined to exercise option years four and five on one of the
                   grants, allowing for $620,020 of NSF funds to be redirected to other programs
                   by the Directorate for Computer and Information Science and Engineering.
                   The audit report was provided to NSF’s Division of Institution and Award
                   Support for audit resolution.


                   Production Company Financial Systems are
                   Found Inadequate
                        Auditors questioned $921,489 or 34 percent of total claimed costs for
                   two awards given to the production company ScienCentral Inc. (SCI), and a
                   closely related non-profit organization, The Center for Science in the Media
                   (CSMI) because they did not have adequate financial systems to account for
                   its NSF funded expenses and cost sharing claimed on NSF awards. In
                   addition, CSMI did not have the required OMB Circular A-133 audits for its
                   fiscal years 2000 and 2001. OIG recommended that NSF recognize SCI and
                   CSMI as high-risk awardees and not grant them new funds until the
                   organizations implemented adequate accounting systems and controls to
                   effectively administer and monitor their NSF awards. In response to the audit


          18
                                                            OIG Semiannual Report    March 2005




report, SCI and CSMI management identified a number of actions they have
already taken to improve the financial management system and to support
some of the questioned costs.


$6.8 Million in Cost Sharing Required of School
District is Questioned
      OIG audited the financial report submitted by Fresno Unified School
District (FUSD) in California for the five-year period ending August 31, 2000
as part of our ongoing review of awardees under NSF’s Urban Systemic
Program and Urban Systemic Initiative (USP/USI). While the school district
was able to support the $15 million of NSF funded costs claimed under the
award, it lacked sufficient and adequate records to evidence meeting its $17.5
million in cost sharing commitments. As a result of this material weakness,
we questioned $6.8 million of NSF’s share of total project costs.

     Over $220,000 of indirect costs were also questioned because the
awardee did not accurately calculate or consistently charge its indirect cost
rate. $5.1 million in claimed salary, wage and fringe benefit costs would have
been questioned had the auditors not performed additional verification
procedures at the government’s expense, because the school district did not
maintain the required supporting documentation. FUSD officials stated that
as a first-time NSF award recipient, they were not aware of the accounting
and documentation requirements for NSF awards. They indicated that they
have taken actions to address the internal control and compliance findings
and recommendations in the report.

     NSF should direct FUSD to develop and implement a financial
management system and adequate procedures to effectively administer and
monitor NSF funds. These steps should include: (1) implementing proper
systems to identify, track, and report cost sharing and participant support costs,
(2) providing training to appropriate personnel to properly calculate indirect
costs, and (3) ensuring that employees maintain the proper documentation to
support salary and wage charges in compliance with federal and NSF
requirements. The audit report was forwarded to NSF’s Division of Institution
and Award Support for audit resolution.


Grant Management at Community Colleges
Need Improvement
     In our on-going assessment of grants management at community
colleges, two additional audits have been completed. Like the prior audits,


                                                                                       19
Audits & Reviews




                   these community colleges also have grant accounting control weaknesses,
                   especially in the areas related to labor activity reporting, cost sharing,
                   subawards, and consultant costs.

                                  Springfield Technical Community College (STCC) claimed
                   questionable and inadequately supported cost sharing and could not provide
                   documentation to support the claim that consultant costs benefited the NSF
                   award. In total, we questioned $230,133 of the $2,945,325 costs claimed on
                   this award that was intended to increase the number of trainees in the
                   telecommunications industry.

                             Similarly, an audit of Texas State Technical College – West Texas
                   (TSTC) identified material deficiencies in the College’s financial controls over
                   labor activity reporting and cost sharing. Among the costs questioned was
                   $24,745 of salaries and related fringe benefits, which the College claimed
                   for work that had not yet been performed. The College was also unable to
                   locate 81 percent of the employee activity reports, representing approximately
                   $650,000, or over 50 percent of the total $1.25 million costs TSTC claimed
                   on the NSF award. OIG also found that TSTC: 1) lacked a system to track,
                   record, and monitor its required cost sharing; 2) did not obtain financial
                   disclosure statements from investigators working on the NSF award; and 3)
                   did not prepare contractual agreements with all of its consultants, which could
                   have jeopardized TSTC’s ability to meet its programmatic objectives and
                   comply with federal and NSF requirements. TSTC officials stated that these
                   problems occurred because the project director of the award had received
                   little or no oversight from other responsible TSTC officials.

                        Officials at both STCC and TSTC West Texas agreed with the internal
                   control and compliance findings and recommendations and reported that they
                   have implemented corrective actions. Both audit reports were forwarded to
                   NSF’s Division of Institution and Award Support for audit resolution.


                   Other Reports

                   FY 2004 FISMA Information Systems Reports
                        During this semiannual period OIG issued the FY 2004 Federal
                   Information Security Management Act (FISMA) Independent Evaluation
                   Report and the FY 2004 FISMA Evaluation Summary Report. The report
                   states that NSF has an established information security program and has
                   been proactive in reviewing security controls and identifying areas to
                   strengthen this program. However, the report identified one reportable



          20
                                                          OIG Semiannual Report   March 2005




condition concerning the need to strengthen the information security program
at NSF’s contractor-operated facilities supporting Antarctic operations. Four
other less significant weaknesses were also identified. Management agreed
with the findings and recommendations in these reports and indicated that, in
many instances, it has already initiated corrective action.


National Science Board’s Compliance with
Sunshine Act
     At the request of Congress, OIG conducts an annual review of the National
Science Board’s compliance with the Sunshine Act. In 2004, the Board again
demonstrated a clear intent to provide for greater access to and increased
openness in its meetings, and properly closed meetings consistent with the
exemptions contained in the Sunshine Act. However, as the Board is continuing
to develop the formal policies and procedures recommended in last year’s
audit, it again experienced challenges in meeting some of the many procedural
requirements of the Sunshine Act. For example, while the Board for the most
part provided timely public announcement of its regular schedule, it met this
requirement only 33 percent of the time for its ad hoc meetings. The Board
should implement formal guidance for handling such ad hoc meetings and
ensure that its members and staff are familiar with it.

     To provide needed structure and protocol and to ensure greater
consistency and accountability in complying with Sunshine Act requirements,
the NSB needs to complete its plans to develop, implement, and provide
training on formal policies and procedures on Sunshine Act requirements.
The Board expects to implement this guidance during the first half of 2005.



A-133 Audit Reports
     The Single Audit Act of 1984 (Public Law 98-502) and the Single Audit
Act amendments of 1996 (Public Law 104-156) established uniform
requirements for audits of non-federal entities receiving federal awards. Under
the Act, non-federal entities that expend $500,000 or more a year in federal
awards are required to have an organization-wide audit that includes the non-
federal entity’s financial statements and compliance with federal award
requirements. OIG work with respect to A-133 audit reports is summarized
below:




                                                                                    21
Audits & Reviews




                   Quality Control Review
                        During this reporting period, OIG conducted a quality control review of
                   an audit performed by an accounting firm under the Single Audit Act. The
                   review found that the firm’s auditors did not address a $31.7 million liability
                   for postretirement health benefits and the related disclosure omitted from the
                   grantee’s financial statements. The seriousness of this auditing deficiency
                   compelled us to refer the matter to the American Institute of Certified Public
                   Accountants Professional Ethics Division for resolution. The AICPA is
                   reviewing the matter and will advise us of their decision.

                        Additionally as part of the review, we found that the auditor did not report
                   the grantee’s non-compliance with federal property disposal requirements.
                   Further, the auditors’ work papers did not sufficiently document the internal
                   control structure and audit steps used to test the grantee’s compliance with
                   federal requirements. Although the auditor disagreed with the findings related
                   to the omitted liability and federal property disposal requirements, they agreed
                   to improve the documentation of the internal control structure and audit steps
                   taken to test compliance.


                   Desk Reviews
                           After A-133 audit reports are submitted by the non-federal entities to
                   the Federal Audit Clearinghouse, we conduct desk reviews of audits where
                   NSF is the cognizant or oversight agency or the audit report identified findings
                   specific to NSF awards. In this reporting period, we conducted desk reviews
                   of 43 A-133 audit reports with NSF expenditures totaling $319 million between
                   fiscal years 2002 and 2004. For 21 of these A 133 audit reports, auditors
                   found a total of 86 compliance and internal control findings related to NSF
                   awards. The most common findings related to deficiencies in financial
                   management and lack of adequate support for salary and wages. Auditors
                   questioned $561,615 of NSF award costs claimed by award recipients.
                   Examples include $240,232 in over charges for indirect costs at Clark Atlanta
                   University, and $290,262 of unsupported sub-recipient costs claimed by
                   University of Puerto Rico. The following table summarizes findings found in
                   the A-133 audit reports:




          22
                                                           OIG Semiannual Report   March 2005




              Findings Related to NSF Awards by Category

                                     Category of Finding
     Category of Cost, Income                     Internal
       or Activity                   Compliance Controls Monetary Total

     Financial Management            9              6           3          18
     Salary/Wages                    10                                    10
     Award Management
     Requirement                     9                                      9
     Other Direct Costs              9                                      9
     Sub-awards                      7                          1           8
     Indirect Costs                  5                          1           6
     Equipment                       4                                      4
     Other                           17             4           1           22
     Total                           70             10          6           86

     We also examined Management Letters accompanying A-133 audit
reports. While management letters report less significant internal control
deficiencies, these deficiencies can become more serious over time if not
addressed. Twenty-one entities were issued Management Letters in this
reporting period identifying internal control problems such as segregation of
duties, adherence to allowable cost rules, and lack of procedures to mitigate
fraud.


Single Audit Quality Project Update
     A-133 audit reports are essential to helping NSF fulfill its responsibility
for monitoring the approximately $5 billion of awards it funds annually. As
previously reported, concerns raised by Quality Control Reviews (QCRs)
conducted by a number of federal agencies have prompted the OIG community
to conduct a government-wide project to assess and provide a baseline
measurement of the quality of Single Audits. In November 2004, auditors
participating in the project began conducting QCRs on a statistically
representative sample of 208 A-133 audits submitted to the government.

     Serving on both the Project Advisory Board and as part of the project
management staff, the NSF OIG helped develop guidance material and training
for auditors conducting the reviews, monitored on-going reviews, and
examined completed QCRs. The NSF OIG plans to conduct two QCRs during
the next semiannual reporting period. Given the importance of A-133 audit


                                                                                     23
Audits & Reviews




                   quality to NSF’s post-award administration, our office will continue to be
                   involved in overseeing and reporting on the results of this government-wide
                   Single Audit quality project.



                   Corrective Actions Prompted by
                   Previous Audits

                   NSF and Foreign Awardee Improve Management of
                   Grant Funds
                         A prior audit of NSF awards worth $16.4 million to the Inter-American
                   Institute for Global Change Research (IAI) in Brazil, disclosed that NSF, on
                   behalf of the United States, was funding a disproportionate share of the
                   organization’s total costs, and that the organization had not properly monitored
                   14 research subawards, valued at $10.3 million2. Pursuant to the audit
                   recommendations, NSF has reaffirmed, with the President’s Office of Science
                   and Technology Policy (OSTP) and the Department of State, the continued
                   U.S. commitment for sustained funding of IAI research projects. Although the
                   other 18 IAI member countries have not committed to providing any additional
                   research contributions, both OSTP and NSF believe that engaging these
                   countries in scientific assessments of global change issues remains a US
                   priority and that the IAI serves as an effective means of encouraging
                   international collaboration. Also, NSF has continued to work with IAI’s
                   governing body to increase the organization’s efforts in the area of fundraising.
                   IAI has been directed to develop a fundraising strategy document with
                   established milestone dates.

                        The IAI is also improving its management of NSF grant funds, both for
                   the organization’s research projects and core operational expenditures. IAI
                   is developing a Project Management Manual to establish clear written
                   subaward policies and procedures for administering and monitoring NSF
                   research funds passed-through to other institutions. The Institute is also in
                   the process of hiring a new Director. NSF is working closely with IAI to
                   implement these improvements and has informed IAI that additional research
                   funding will not be approved until the Project Management Manual has been
                   completed.




                   2
                       September 2004 Semiannual Report, p.17


          24
                                                            OIG Semiannual Report        March 2005




Work in Process

Collection of Research Information
     Our office is currently conducting survey work on the effectiveness of NSF’s
methods of collecting, documenting, and analyzing the information resulting
from the research it funds. This audit will also examine how other federal
agencies that fund basic research collect research information, for the purpose
of identifying good business practices.


Science and Technology Centers
     NSF’s Office of Integrative Activities requested that OIG conduct audits
of two Science and Technology Centers (STCs) that had recently undergone
significant changes in leadership and management. Using information gained
during our survey on the STC program and Center operations, we began audit
work at two separate universities with STC awards. Because of their size
and complexity, STCs contain more financial risk than most other NSF awards.
Strong leadership is essential if an STC is to be successful in bringing talented
researchers and students together to work on cutting-edge scientific issues.


                                                        A model of downtown
                                                        Minneapolis is prepared for
                                                        testing in the boundary layer
                                                        wind tunnel at the University
                                                        of Minnesota’s St. Anthony
                                                        Falls Laboratory (SAFL). The
                                                        test will study the effects of
                                                        wind on structures. The SAFL
                                                        was recently awarded a
                                                        Science and Technology
                                                        Center award.
                                                        Courtesy Pat Swanson,
                                                        St. Anthony Falls Laboratory,
                                                        Univ. of Minnesota.




                                                                                           25
Audits & Reviews




                   Retirement Benefits Paid by Awardees NSF’s
                   Large Facilities and Programs
                         Our office initiated an audit to review the reasonableness of retirement
                   benefits approved by NSF at five awardees managing some of NSF’s largest
                   facilities and programs. As part of the evaluation, we plan to compare the
                   retirement benefits offered to workers at these facilities with those of other
                   similar institutions. The liability for post retirement health benefits for NSF’s
                   facilities and programs is over $85 million at these five awardees. The growing
                   unfunded liability may have a major impact on future NSF budgets.


                   Review of Thrift Savings Plan Catch-Up
                   Contributions
                        A review of all Thrift Savings Plan (TSP) catch-up contributions made by
                   NSF employees in 2003 and 2004 was initiated because of concerns raised
                   by employees over the accuracy of contribution data reported on employees’
                   quarterly TSP statements. Catch-up contributions are supplemental tax-
                   deferred contributions available to TSP (U.S. government employee retirement
                   savings plan) participants age 50 or older who are already contributing the
                   maximum amount for which they are eligible. To complete this review and
                   ensure that TSP catch-up contributions withholdings from each employee’s
                   pay were properly transferred to their federal TSP account, we are working
                   with staff from NSF’s Division of Financial Management and the TSP to
                   compare and analyze NSF payroll withholding data to the contribution data
                   reflected in the TSP system. We expect to provide NSF with an analysis by
                   employee of any errors found and issue the report in the next semiannual
                   period.




          26
                                                                    Investigations




Civil and Criminal Investigations

School District Agrees to Settlement
and Compliance Plan
     The investigation of an NSF award to a large city school
district was resolved with the execution of settlement and
compliance agreements and a $150,000 reduction in a current
award to the district. The case arose when OIG attempted to
audit the district and identified a number of significant issues
including the district’s inability or unwillingness to provide
adequate documentation to support the $13.8 million in costs
claimed and $21 million in claimed cost sharing. The auditors
were unable to express an opinion on claimed costs and cited
material weaknesses in internal controls and non-compliance with
federal requirements.

      Because of the nature and scope of the problems identified,
and the lack of cooperation it received, the Office of Audits
referred the matter to the Office of Investigations. OIG
subpoenaed relevant records from the district, which cooperated              HIGHLIGHTS
with the investigation. However, the district was not able to provide
sufficient source documentation to contest most of the audit
                                                                        Civil/Criminal
findings.
                                                                        Investigations    27
      The district acknowledged numerous systemic weaknesses            Administrative
in its award management practices and voluntarily implemented           Investigations    30
corrective actions. After consulting with the United States
Attorney’s Office, and in coordination with NSF management,             Reviews           37
OIG determined that settlement of this case should include a plan


                                                                        27
     Investigations




The Benefits of Compliance Programs                             to ensure future compliance with federal
                                                                requirements and to safeguard current and
The use of compliance programs as part of the resolution
of investigations of organizational misdeeds is increasing.
                                                                future funds awarded to the district. The
Compliance plans have proven to be an effective means           compliance plan requires the district to form
of strengthening internal controls, curbing misconduct, and     a compliance committee to oversee the
changing the culture of organizations. Such programs also
serve the interests of federal agencies in ensuring
                                                                implementation of procedures outlined in the
compliance with their regulations and policies.                 agreement, and to report annually for five
                                                                years to OIG. The settlement also resulted in
According to the Department of Justice (DOJ):
                                                                the reduction of the district’s current award
“Corporations should not be treated leniently because of        by a total of $150,000.
their artificial nature nor should they be subject to harsher
treatment. Vigorous enforcement of the criminal laws
against corporate wrongdoers, where appropriate results
in great benefits for law enforcement and the public,
                                                                Former NSF Employee
particularly in the area of white-collar crime. Indicting       Convicted of Felony Not
corporations for wrongdoing enables the government to
address and be a force for positive change of corporate         Debarred
culture, alter corporate behavior, and prevent, discover, and
punish white-collar crime3.”
                                                                     Two years ago NSF’s former Travel Card
DOJ therefore actively promotes the implementation of           Program Manager pled guilty to the willful and
compliance programs:
                                                                unlawful destruction of an official government
“Compliance programs are established by corporate               record, a felony.6 The manager misused her
management to prevent and to detect misconduct and to           own government travel card on approximately
ensure that corporate activities are conducted in
                                                                four dozen occasions, and initially concealed
accordance with all applicable criminal and civil laws,
regulations, and rules. The Department encourages such          her misuse from an OIG audit by deleting
corporate self-policing, including voluntary disclosures to     information from official agency records.
the government of any problems that a corporation
                                                                Following an investigation that resulted in her
discovers on its own4.”
                                                                conviction, the manager was sentenced to 20
The U.S. Sentencing Guidelines recognize the benefits of        weekends in jail, 2 years supervised
compliance programs, and when organizational criminal
                                                                probation, fined $1,000, and permanently
wrongdoing does occur, entities with compliance programs
in place are accorded consideration by the Guidelines.5         barred from all employment with the federal
The Guidelines set out seven components for                     government.
organizational compliance programs:

        (1) Establish standards and procedures to prevent           Although her sentence prohibited the
and detect criminal conduct.                                    manager from serving as a government
        (2) Managerial knowledge and specific responsibility
                                                                employee, there was nothing to prevent her
for the content and operation of the compliance program.
        (3) Avoid employing personnel who have engaged          from seeking private employment for a
in illegal activities or other misconduct.                      federal government contractor or
        (4) Periodic training of personnel about the
                                                                subcontractor. In light of the seriousness of
requirements of the compliance program.
        (5) Monitoring and auditing of the effectiveness of
the compliance program; and establishing and publicizing
a confidential, anonymous, risk-free whistleblower
program.                                                        3
                                                                   “Principles of Federal Prosecution of Business
        (6) Promotion of the program through incentives for     Organizations” (available at http://www.usdoj.gov/dag/
success and disciplinary measures for failures.                 cftf) at 1.
        (7) Taking timely action when wrongdoing is detected,   4
                                                                  Id. at 8.
both reporting it and making appropriate modifications to       5
                                                                   U.S.S.G. §§ 8B2.1, 8C2.5(f), & 8D1.4(c)(1) (11/1/04).
the compliance program to avoid recurrence.                     6
                                                                   March 2004 Semiannual Report, p.23



              28
                                                            OIG Semiannual Report    March 2005




her offense, and considering her senior and highly responsible position, OIG
advised NSF that the federal interest would be best protected by prohibiting
her from having any responsibility for federal funds by debarring her for a period
of three years.

     NSF declined to debar and explained that it “considered the fundamental
policy set forth in the common debarment rule stating that debarment is not to
be used as a punishment. Rather, the agency is to exercise its debarment
authority in order to appropriately protect the federal Government’s interest. It
is therefore relevant that your conviction is a felony and a matter of public
record, and that you can no longer work as an employee of the federal
government.”

    The OIG disagrees with NSF’s view that the conviction of a felony as a
matter of public record weighs against debarment, or that the ban on federal
employment mandated by the criminal statute she violated should affect a
debarment decision. To the contrary, crimes are designated as felonies
because they are more serious, conviction of a felony is always a matter of
public record, and conviction for “destruction of records” is an explicit
independent ground for debarment in NSF’s debarment regulation. The OIG
takes the destruction of official records seriously and expressed
disappointment to NSF that it did not take administrative action in this case.


NSF Suspends Owner of Small Business
     In response to an OIG recommendation, NSF suspended the owner of a
small business who pled guilty to Mail Fraud and Tax Evasion, and his company,
from participating in contracting with the federal government. A multi-agency
investigation found that the owner submitted false reports to NSF and other
federal agencies related to SBIR awards to the owner’s company, resulting in
loss to the government estimated at $1.4 million.7 The owner has not yet been
sentenced.


University Implements New Policy for Charging
Administrative Fees to Federal Awards
     The Office of Audits previously reported that a California university repaid
$1.3 million to NSF for inappropriately recovering administrative service costs
above the maximum allowed under federal regulations.8 The Office of Audits


7
    September 2004 Semiannual Report, p.25
8
    March 2004 Semiannual Report, p.19



                                                                                       29
Investigations




                 referred the matter to the Office of Investigations to determine whether the
                 university officials who charged such costs to NSF grants knew the charges
                 were wrongful. Our investigation did not disclose any overt evidence of fraud
                 on the part of university officials. Following the audit and subsequent
                 investigation, the university implemented a new policy concerning the charging
                 of administrative fees that complies with federal regulations. The university
                 also committed to training its staff to ensure that the new policy is understood
                 and followed. The audit was forwarded to NSF for resolution and it has
                 recovered the full amount.


                 Two Employees Misuse Government Computers
                      In two similar but unrelated incidents, NSF officials notified our office
                 that files containing sexual material had been discovered on the agency’s
                 computer network. Our investigation revealed that, in both incidents, the
                 employees used NSF computers and internet access to visit adult web sites
                 and download sexually explicit photographs and videos. The files were
                 maintained on the NSF computers used by the individuals as well as on NSF
                 network drives. Both individuals forwarded some of these files to others via
                 email. Additionally, one of the individuals installed a peer-to-peer file-sharing
                 program, in violation of NSF policy for agency computers, and used this
                 program to download illegally a large number of copyrighted files.

                       In both cases we submitted our findings to NSF management for
                 appropriate administrative action. At the time of this report, one of the
                 individuals has been terminated, and the other case is pending adjudication.
                 Our office is also working closely with NSF to conduct a proactive review of
                 employees’ use of agency computers and electronic resources to determine
                 if the actions identified during our investigations are isolated incidents or
                 indicative of a larger problem of employees abusing government resources.


                 Administrative Investigations

                 Actions by the Deputy Director

                 Proposal Author Commits Plagiarism

                      Last year, OIG recommended a finding against an author of a proposal
                 that contained text copied from multiple papers.9 NSF’s Deputy Director (DD)

                 9
                     September 2004 Semiannual Report, p.30



        30
                                                                OIG Semiannual Report   March 2005




concluded the author, who was neither the PI nor co-PI, committed plagiarism.
The DD issued a finding of research misconduct against the author and required
that the author’s university provide written assurance for a period of two years
that any proposal submitted to NSF by the author adheres to rules of
scholarship and attribution.

      We sent the PI listed on the proposal a letter stating that, although she
did not personally commit research misconduct, we agreed with her university
that she failed to meet her responsibilities as PI by not thoroughly reviewing
the proposal before it was submitted. As a result of our recommendations in
this case, NSF changed its Grant Proposal Guide to require that a proposal’s
authors, if not the PI or co-PI, be named and acknowledged.

Deputy Director’s Finding Upheld on Appeal

    We previously discussed a finding by the DD of research misconduct in
Pennsylvania in which the subject plagiarized from a confidential proposal
and a published paper.10 The subject appealed the DD’s decision to NSF’s
Director, who upheld the DD’s finding and actions.

NSF Takes Action Against co-PI Who Plagiarized

      In a previous report,11 we discussed a case in which OIG recommended
that NSF take action against a co-PI at a Michigan university who participated
in plagiarizing a Research Experiences for Undergraduates (REU) proposal.
Based on our investigation and recommendations, NSF made a finding of
research misconduct and required, through November 2005, the subject’s
university to provide written assurance that any proposal the subject submits
to NSF adhere to rules of scholarship and attribution. In addition, NSF
prohibited him from serving as an NSF peer reviewer, advisor, or consultant
for an 11-month period and required him to complete an ethics training course.

PI Fabricates Publication Record

    A PI who fabricated his publication record in two awarded NSF proposals,
one of which was a prestigious Faculty Early Career Development (CAREER)
award, was found to have committed research misconduct.12 Based on OIG’s
investigation and recommendations, NSF made the finding and required that,


10
     March 2004 Semiannual Report, p.28; September 2004 Semiannual Report, p.28
11
     September 2004 Semiannual Report, p.30
12
     September 2004 Semiannual Report, p.29



                                                                                          31
Investigations




                 for three years, the subject provide written certification and the subject’s
                 university provide written assurance that any document he submits to NSF
                 adheres to rules of scholarship and attribution.

                 PI Plagiarized from Book and Paper

                      Following OIG’s recommendation, the DD found that a PI at a North
                 Dakota university committed plagiarism in a proposal she submitted to NSF.
                 OIG received an allegation that the PI copied material from the preface of a
                 book into her proposal. In response to our questions about the copied text,
                 the PI admitted she failed to properly distinguish the text, and identified
                 additional text she had copied from a published paper. We referred the
                 allegation of plagiarism to the PI’s university for investigation.

                       Following its investigation, the university concluded that the PI plagiarized
                 text from a book and a published paper into her proposal. It reprimanded the
                 PI and took the following actions: 1) her proposals and manuscripts submitted
                 for the rest of the year (2004) had to be reviewed and approved by her
                 department head; 2) she must have a co-chair on all committees which she
                 chairs for a period of 2 years; 3) she must make one or two presentations
                 annually as part of the graduate assistant ethics training course for the duration
                 of her employment at the university; 4) she must undergo formal training in
                 research ethics at her own expense; 5) her salary adjustment for FY 05 will be
                 1% instead of 3%; and 6) a letter of reprimand was placed permanently in her
                 personnel file.

                      We agreed with the university’s conclusion and recommended that NSF
                 send a letter of reprimand to the subject informing her she has been found to
                 have committed research misconduct. Considering the relative seriousness
                 of the PI’s misconduct, and the actions taken by the university, we did not
                 recommend that NSF take additional action against the PI. The DD followed
                 our recommendations.


                 Reports Forwarded to the Deputy Director

                 Graduate Student Fabricates Data

                      A California university notified OIG that it was investigating an allegation
                 that a graduate student fabricated data that found its way into proposals
                 submitted to NSF and the National Institutes of Health (NIH). The graduate
                 student provided the data to her advisor who unknowingly used it as the basis
                 for a manuscript submitted for publication and both proposals.


        32
                                                                OIG Semiannual Report   March 2005




     The university’s investigation indicated that the advisor suspected that
the graduate student fabricated the results and asked the subject for the raw
data. However, the student declined requests for the raw data from both the
advisor and the investigations committee. She claimed that she gave her
data to an unnamed undergraduate who analyzed it and emailed her the results.
The student refused to identify the perpetrator, and instead provided an email
alleged to be from the undergraduate stating that she had falsified the analyses
and she was sorry. The university concluded that the student created a fictitious
person to hide the fact that she was responsible for falsifying the results. It
found that the subject committed research misconduct and dismissed her
from the university.

     OIG opened its own investigation and coordinated efforts with the Office
of Research Integrity (ORI), which handles allegations involving NIH proposals
and refers matters to the Department of Health and Human Services (HHS)
for adjudication. After several unsuccessful attempts to contact the subject
and hear her story, we too concluded that the graduate student committed
research misconduct. OIG recommended that NSF jointly resolve this case
with HHS, and send a letter of reprimand to the graduate student informing
her of the finding and debar her for 3 years. A final decision on this matter is
pending.




         Dewan Kazi Farhana, a Douglass College Extern, reviews research
         misconduct policies with the Inspector General.




                                                                                          33
Investigations




                 PI’s Plagiarism was Part of a Pattern

                      An additional instance of plagiarism beyond that involved in the initial
                 allegation first reported last September,13 was found in the case of a PI and a
                 co-PI at a Michigan university who appropriated an REU proposal written by
                 scientists at another institution. In the course of reviewing the university’s
                 investigation report for accuracy and completeness, we identified a second
                 research proposal previously submitted by the PI that contained 90 lines of
                 apparently plagiarized text. We referred this matter back to the university.

                       A university committee investigated the new allegations. The PI told this
                 committee that a graduate student provided material for his proposal, that
                 this material accounted for the allegedly plagiarized text, and that the PI
                 submitted his proposal to NSF without reviewing the student’s contribution.
                 The proposal provided no attribution to the student. The committee concluded
                 that the PI’s actions were reckless and constituted research misconduct, and
                 that his behavior was part of a pattern of misconduct.

                      The university reprimanded the PI; required him to withdraw from all
                 pending federal applications; excluded him from applying for federal grants
                 for one year; barred him from serving as senior project member on any federal
                 grant; prohibited him from serving as an NSF reviewer; and for three and a
                 half years, institutional officials must review all his proposals prior to
                 submission. OIG recommended that NSF find the PI committed research
                 misconduct, send him a letter of reprimand, require assurances for any
                 proposals submitted for three years, and prohibit him from serving as an NSF
                 reviewer for the same period. Because the PI’s plagiarized research proposal
                 resulted in an award, we also recommended that NSF terminate the award.

                 Falsification, Fabrication, and Plagiarism Found in a
                 Single Proposal

                      We recommended a two-year debarment for a PI who plagiarized,
                 fabricated, and falsified text, figures, and experimental conditions in an
                 unfunded NSF proposal. The PI’s university had investigated an allegation
                 referred by OIG, and found that the PI had committed research misconduct by
                 copying a paragraph of text from a journal article without permission or citation,
                 falsely presenting another’s data as his own preliminary results, and copying
                 and editing figures from published sources without attribution.



                 13
                      September 2004 Semiannual Report, p.30



        34
                                                                   OIG Semiannual Report   March 2005




     The PI, an instructor at the university, edited both figures substantially
and described them in the text with fabricated experimental conditions. The
PI’s postdoctoral advisor, whom the PI described as a consultant on the project,
was a co-author on each of the source documents. However, the investigation
found no indication of a formal or informal consulting relationship between the
subject and his former advisor.

     Because the PI’s contract with the university had expired, the university’s
sanctions were limited and focused on restrictions concerning hiring the PI
for other positions. OIG recommended that NSF debar the PI for two years;
require the PI to certify completion of an ethics training program before applying
for NSF funding in the future; require certifications and assurances for all
documents submitted to NSF for three years following the debarment, that
each submission is properly referenced and accurate; and bar the PI from
serving in the NSF peer review process for three years. NSF’s decision is
pending.




    NSF funds some grants that utilize human or animal testing. In an unrelated project,
    a premed student tests a head-injured rat on the balance beam for surefootedness.
    University Photocommunications, Southern Illinois University, Carbondale




                                                                                             35
Investigations




                 Significant Administrative Cases

                 Non-Compliance with Human Subjects and Living
                 Organism Regulations and Policies Forces
                 Changes in Awarded Project
                       An EPSCoR institution in Oklahoma voluntarily suspended work with
                 animals under an REU award and ultimately changed the scope of the project
                 to eliminate the animal work when it was unable to achieve compliance with
                 NSF policy. NSF policy requires that work with vertebrate animals be declared
                 at the time the proposal is submitted, and that the Institutional Animal Care
                 and Use Committee (IACUC) review work with vertebrate animals before the
                 award is made. Work with human subjects must comply with the Common
                 Rule for the Protection of Human Subjects, and must be self-identified with
                 appropriate exemptions declared or reviewed by an Institutional Review Board
                 (IRB) before the award may be made.14 An institution must assure NSF, or in
                 some cases the Department of Health and Human Services, that its IRB or
                 IACUC operates under the required guidelines before either committee can
                 review and approve research at that institution.

                       In this case, the institution failed to self-identify its work with humans and
                 animals in the proposal, despite its use of both as research subjects.15 During
                 the review period, the institution submitted IRB and IACUC approvals for at
                 least some parts of the research; however, we learned that neither the IRB nor
                 the IACUC had an approved assurance with the relevant federal offices or
                 NSF. This called into question all of the IRB and IACUC reviews not only for
                 this project but also for other NSF awards at the institution. After OIG notified
                 the institution of these concerns, it took steps to correct the errors. It received
                 an approved assurance from HHS for its IRB in a matter of weeks, but after
                 several months it had not received an approved assurance for its IACUC.
                 While trying to obtain the approval, the institution voluntarily suspended its
                 work with animals with the consent of the program officer. Unable to obtain an
                 approval for the work with animals, the institution requested a significant change
                 in scope to remove all animal projects from the award.



                 14
                    There are provisions that cover projects that at the outset do not involve living organism
                 research but later incorporate living organisms into the project. Review and approval must
                 be obtained before those phases of the project may begin.
                 15
                    We also learned that although the program officer correctly coded the proposal for human
                 subjects on NSF’s internal processing form, she did not code the proposal for vertebrate
                 animal research.



        36
                                                           OIG Semiannual Report   March 2005




Improperly Used Participant Support Funds
Returned to NSF
     Our office investigated two separate allegations that participant support
funds were misused and recovered $30,000 for the agency. Participant
support funds are designed to defray the costs of transportation, per diem,
stipends, and other related costs for participants or trainees (but not
employees) in connection with NSF-supported conferences, meetings,
symposia, training activities and workshops. Grantees must obtain prior written
approval from the cognizant NSF program officer if they want to reallocate
participant support funds to pay for other grant-related expenses.

     In these cases, NSF granted funds to support collaborations between a
United States scientist and a foreign scientist. The participant support funds
were intended to help pay for the travel of the foreign scientists. However, the
collaborations failed to take place due to visa restrictions, which prevented
the foreign scientists from traveling to the United States. In both cases, the
PIs reallocated the participant support costs—$12,000 in one case and over
$18,000 in the other—to purchase supplies and equipment without permission
of the NSF program officer. After the matter was brought to their attention,
both institutions reimbursed NSF.


Reviews

NSF Accepts Recommendations to Increase
Compliance with Administrative Actions
     In order to protect the interests of the federal government, OIG
recommends that appropriate administrative actions be applied to those who
have engaged in research misconduct or other wrongdoing. These
administrative actions or sanctions include debarments, certifications,
assurances, and reviewer prohibitions, and are subject to agreement and
implementation by NSF management. Because OIG and NSF have a mutual
interest in the efficacy of NSF’s compliance program, we reviewed NSF
management’s efforts to ensure compliance with the administrative actions it
imposes.

     The most significant administrative action that NSF can take against a
subject is government-wide debarment. Subjects who are debarred are
included on the Excluded Parties List System (EPLS), which NSF (like all
federal agencies) is required to check before making an award. We found


                                                                                     37
Investigations




                 that NSF had stopped checking the list, relying instead on the awardee’s e-
                 signed certifications. When NSF’s debarment regulation was revised in
                 November 2003 to reflect changes in the government-wide common rule, it
                 deleted the previous certification requirement, relying instead on checking
                 EPLS. Accordingly, we recommended that NSF resume checking EPLS, as
                 required by its regulation. NSF initially responded that it intended to continue
                 its practice of not checking EPLS, asserting that “NSF’s approach is consistent
                 with the direction the federal government is headed” and “in keeping with a
                 government-wide approach.” Subsequently, NSF deliberated and then
                 implemented a policy requiring checking EPLS for all awards.

                      In addition, we recommend that NSF management require a subject to
                 submit certifications or assurances regarding compliance with requirements
                 as appropriate. Because our review found two cases in which subjects
                 submitted proposals to NSF without submitting the required certifications,
                 we recommended that NSF modify its proposal processing system to ensure
                 that proposals submitted by PIs who are subject to such requirements will not
                 proceed through the merit review process unless the required certifications
                 or assurances have been received. NSF agreed to implement this
                 recommendation.

                      As a resolution of some cases, a subject is prohibited from reviewing
                 proposals for a specified period of time. However, we determined that the
                 prohibition is effective only if the subject’s name is already in NSF’s reviewer
                 database. We recommended that NSF ensure that such subjects’ names
                 are entered into the system so they cannot be used as reviewers, and NSF
                 agreed to do so.




        38
                                                      Statistical Data




Reporting Terms Defined                                 52

Audit Reports Issued
with Recommendations for Better Use of Funds            53

Audit Reports Issued with Questioned Costs              54


Audit Reports Involving Cost-Sharing Shortfalls         55


Status of Recommendations that Involve
Internal NSF Management Operations                      56


List of Reports                                         57


Audit Reports With
Outstanding Management Decisions                        60


Investigations Case Activity                            61


Investigations Case Statistics                          62

Freedom of Information Act and Privacy Act Requests     63




                                                        51
Statistical Data




                   Reporting Terms Defined
                   Some of the more common terms that we use in reporting audit statistics and
                   findings are defined below:

                   Questioned Cost. Auditors question costs because of an alleged violation
                   of a provision of a law, regulation, grant, cooperative agreement, or contract.
                   In addition, a questioned cost may be a finding in which, at the time of the
                   audit, either a cost is not supported by adequate documentation, or the
                   expenditure of funds for the intended purpose is deemed unnecessary or
                   unreasonable.

                   Unsupported Cost. A cost that is questioned because it is not supported
                   by adequate documentation at the time of audit.

                   Unresolved Costs. Costs that have been claimed, but can not be evaluated
                   at the time of the audit because either: 1) the criteria for their measurement
                   has not been established; 2) the period for establishing the criteria is not
                   complete or 3) the criteria is unclear or ambiguous. This category most
                   frequently applies to indirect costs. For example, if a final indirect cost rate
                   has not been determined for a particular period, the claimed indirect costs
                   for that period would be classified by the auditor as unresolved costs.

                   Management Decision. Management’s evaluation of the findings and
                   recommendations included in the audit report and the issuance of a final
                   decision by management containing its response to such findings and
                   recommendations. It is important to note that NSF is responsible for making
                   a management decision regarding questioned costs that determines whether
                   they will be sustained (i.e., disallowed) or allowed.

                   Funds Put to Better Use. Audit recommendations that identify ways to
                   improve the efficiency of programs frequently lead to prospective benefits
                   over the life of an award or funds put to better use. Examples include reducing
                   outlays, deobligating funds, or avoiding unnecessary expenditures.

                   Final Action. The completion of all management actions that are described
                   in a management decision with respect to audit findings and
                   recommendations. If management concluded that no actions were necessary,
                   final action occurs when a management decision is issued.

                   Compliance or Internal Control Issues. Audits often result in
                   recommendations either to improve the auditee’s compliance with NSF and
                   federal regulations, or to strengthen the auditee’s internal control structure to
                   safeguard federal funds from fraud, waste, abuse, and mismanagement.

          52
                                                       OIG Semiannual Report   March 2005




Audit Reports Issued with
Recommendations for Better Use of Funds
                                                            Dollar Value
A. For which no management decision has been made
   by the commencement of the reporting period                $5,174,370

B. Recommendations that were issued during the
   reporting period                                             $620,020

C. Adjustments related to prior recommendations                       $0

Subtotal of A+B+C                                             $5,794,390

D. For which a management decision was made during
   the reporting period                                       $5,174,370

   i) Dollar value of management decisions that were
      consistent with OIG recommendations                     $5,174,370

   ii) Dollar value of recommendations that were not
       agreed to by management                                        $0

E. For which no management decision had been made
   by the end of the reporting period                           $620,020

For which no management decision was made within
6 months of issuance                                                  $0




                                                                                53
Statistical Data




                   Audit Reports Issued with Questioned Costs

                                                        Number    Questioned Unsupported
                                                             of       Costs       Costs
                                                        Reports
                   A. For which no management
                      decision has been made by
                      the commencement of the
                      reporting period                      21    $2,586,187    $1,175,940

                   B. That were issued during the
                      reporting period                      12    $42,163,896   $3,359,372

                   C. Adjustment related to prior
                      recommendations                        2     ($451,034)    ($35,534)

                   Subtotal of A+B+C                        35    $44,299,049   $4,499,778

                   D. For which a management
                      decision was made during the
                      reporting period                      18      $660,127      $25,100

                      i) dollar value of disallowed
                          costs                            N/A      $149,491          N/A
                      ii) dollar value of costs not
                          disallowed                       N/A      $513,636          N/A

                   E. For which no management
                      decision had been made by
                      the end of the reporting period       15    $43,638,922   $4,474,678

                   For which no management
                   decision was made within 6
                   months of issuance                        3    $1,487,673    $1,115,306




          54
                                                       OIG Semiannual Report   March 2005




Audit Reports Involving Cost-Sharing Shortfalls

                                   Number        Cost-        At Risk of      Actual
                                        of     Sharing     Cost Sharing Cost Sharing
                                   Reports    Promised         Shortfall   Shortfalls
                                                              (Ongoing   (Completed
                                                                Project)     Project)
 A. Reports with monetary
    findings for which no
    management decision has
    been made by the
    beginning of the reporting
    period:                              1           $0          $141,114                   $0

 B. Reports with monetary
    findings that were issued
    during the reporting period:         3   $13,959,578          $53,875        $6,844,395


 C. Adjustments related to
    prior recommendations                            $0                $0                   $0

 Total of Reports with Cost
 Sharing Findings (A+B+C)                4   $13,959,578        $194,989         $6,844,395

 D. For which a management
    decision was made during
    the reporting period:              N/A           $0                $0                   $0

    1. Dollar value of cost-
       sharing shortfall that
       grantee agreed to
       provide                         N/A          N/A                $0                   $0
    2. Dollar value of cost-
       sharing shortfall that
       management waived               N/A          N/A                $0                   $0

 E. Reports with monetary
    findings for which no
    management decision has
    been made by the end of
    the reporting period                 4 $13,959,578          $194,989         $6,844,395



                                                                                55
Statistical Data




                   Status of Recommendations that Involve
                   Internal NSF Management Operations

                    Open Recommendations (as of 9/30/04)
                       Recommendations Open at the Beginning of the
                         Reporting Period16                                                   65
                       New Recommendations Made During Reporting Period                       34
                       Total Recommendations to be Addressed                                  99

                    Management Resolution of Recommendations17
                       Awaiting Resolution                                                    43
                       Resolved Consistent With OIG Recommendations                           56

                    Management Decision That No Action is Required                              0

                    Final Action on OIG Recommendations18
                        Final Action Completed                                                15
                        Recommendations Open at End of Period                                 84

                    Aging of Open Recommendations

                            Awaiting Management Resolution:
                                  0 through 6 months                                          32
                                  7 through 12 months                                          8
                                  More than 12 months                                          3

                            Awaiting Final Action After Resolution:
                                  0 through 6 months                                          18
                                  7 through 12 months                                         12
                                  More than 12 months                                         11




                    16
                       The ending balance as of September 2004 was reported as 62 recommendations.
                    However, three open recommendations were not included in the prior period semian-
                    nual report.
                    17
                       “Management Resolution” occurs when the OIG and NSF management agree on the
                    corrective action plan that will be implemented in response to the audit recommenda-
                    tions.
                    18
                       “Final Action” occurs when management has completed all actions it agreed to in the
                    corrective action plan.



          56
                                                 OIG Semiannual Report   March 2005




List of Reports


NSF and CPA Performed Reviews
                                                                         Better          Cost
Report                                 Questioned    Unsupported         Use of       Sharing
Number        Subject                       Costs          Costs         Funds         At-Risk

05-1-001 Fresno Unified School District $6,858,207    $2,699,162               $0          $0
05-1-002 Springfield Technical
         Community College               $230,133              $0              $0          $0
05-1-003 ScienCentral, Inc., and the
         Center for Science in the
         Media                           $921,489       $658,950          $0               $0
05-1-004 University of South Dakota      $142,592             $0    $620,020          $53,875
05-1-005 Raytheon Polar Services
         Company                       $33,425,115             $0              $0          $0
05-1-006 Texas State Technical
         College, West Texas               $24,745             $0              $0          $0
05-2-001 FY04 FISMA Evaluation
         Summary                                $0             $0              $0          $0
05-2-002 FY04 FISMA Evaluation
         Reports                                $0             $0              $0          $0
05-2-003 FY04 NSF Financial
         Statement Audit                        $0             $0              $0          $0
05-2-004 FY04 NSF Special-Purpose
         Financial Statements                   $0             $0              $0          $0
05-2-005 United States-Mexico
         Foundation for Science                 $0             $0              $0          $0
05-6-001 Associated Universities, Inc.          $0             $0              $0          $0
05-6-002 Survey of Large Facilities
         Projects                               $0            $0          $0               $0
05-6-004 Dakota State University                $0            $0          $0               $0
05-6-005 Amtrak OIG Peer Review                 $0            $0          $0               $0
         Total:                        $41,602,281    $3,358,112    $620,020          $53,875




                                                                          57
Statistical Data




                   NSF-Cognizant Reports


                                                                             Cost
   Report                                     Questioned    Unsupported   Sharing
   Number            Subject                       Costs          Costs    At-Risk

   05-4-001        The Computing Research
                   Association, Inc.              $12,647           $0         $0
   05-4-011        Gadsden Independent School
                   District                           $0            $0         $0
   05-4-010        American Assoc. of Physics
                   Teachers, Inc.                     $0            $0         $0
   05-4-002        ABET, Inc.                         $0            $0         $0
   05-4-005        Universities Research
                   Association, Inc.                   $0           $0         $0
   05-4-006        Carnegie Institute             $16,014           $0         $0
   05-4-008        Marine Biological Laboratory        $0           $0         $0
   05-4-009        Academy of natural Sciences         $0           $0         $0
                   Total:                         $28,661           $0         $0




          58
                                             OIG Semiannual Report    March 2005




Other Federal Audits


                                                                               Cost
   Report                              Questioned    Unsupported            Sharing
   Number       Subject                     Costs          Costs             At-Risk

   05-5-027   Clark Atlanta University    $240,232               $0              $0
   05-5-032   University of Puerto Rico   $290,262               $0              $0
   05-5-026   The University Corporation    $1,200               $0              $0
   05-5-033   Harbor Branch Oceanographic
              Institute, Inc.               $1,260          $1,260               $0
              Total:                      $532,954          $1,260               $0




                                                                       59
Statistical Data




                   Audit Reports With
                   Outstanding Management Decisions
                         This section identifies audit reports involving questioned costs, funds put
                   to better use, and cost sharing at risk where management had not made a
                   final decision on the corrective action necessary for report resolution within 6
                   months of the report’s issue date. At the end of the reporting period there
                   were three reports remaining that met this condition. The status of
                   recommendations that involve internal NSF management is described on page
                   56.




          60
                                                        OIG Semiannual Report   March 2005




Investigations Case Activity


 October 1, 2004 - March 31, 2005

                   Preliminary Civil/Criminal Administrative      Total

 Active Cases
 at Beginning
 of Period              73           48            47              168

 Opened Cases           78           34            32              144

 Closed Cases           120          27            31              178

 Active Cases at
 End of Period          31           55            48              134




                                                                                 61
Statistical Data




                   Investigations Case Statistics


                         Referrals to DOJ                                                           3
                         Criminal Convictions/Pleas                                                 0
                         Civil Settlements                                                          0
                         Administrative Actions                                                     4
                         Investigative Recoveries                                          $230,568


                         Research Misconduct Findings
                         by NSF                                                                     4


                         Cases Forwarded to NSF
                         Management for Action                                                      7


                         Cases Forwarded to NSF Management in Prior
                         Periods Awaiting Action                                                    2


                         Assurances and Certifications19

                         Number of Cases Requiring Assurances During This Period                    4
                         Number of Cases Requiring Certifications During This Period                3
                         Assurances Received During This Period                                     0
                         Certifications Received During This Period                                 0

                         Number of Debarments in Effect During This Period                          8


                    19
                     NSF accompanies some actions with a certification and/or assurance requirement.
                    For example, for a specified period, the subject may be required to confidentially
                    submit to OIG a personal certification and/or institutional assurance that any newly
                    submitted NSF proposal does not contain anything that violates NSF regulations.




          62
                                                       OIG Semiannual Report   March 2005




Freedom of Information Act and
Privacy Act Requests


     Our office responds to requests for information contained in our files
under the Freedom of Information Act (“FOIA,” 5 U.S.C. paragraph 552) and
the Privacy Act (5 U.S.C. paragraph 552a). During this reporting period:

    • We received 11 FOIA requests. The response time ranged between
      3 days and 18 days, with a median of 9 days and an average of
      9 days.

    • We received 1 Privacy Act requests.

    • We did not receive any appeals.




                                                                                63
Statistical Data




          64
                                                          OIG Semiannual Report    March 2005



                                                                                      Appendix 1

                                    Reporting Requirements


   Under the Inspector General Act, we report to the Congress every six
months on the following activities:

    • Reports issued, significant problems identified, the value of questioned
      costs and recommendations that funds be put to better use, and NSF’s
      decisions in response (or, if none, an explanation of why and a desired
      timetable for such decisions). (See pp. 5, 13, 51)

    • Matters referred to prosecutors, and the resulting prosecutions and
      convictions. (See pp. 27, 62)

    • Revisions to significant management decisions on previously reported
      recommendations, and significant recommendations for which NSF
      has not completed its response. (See pp. 24, 60 )

    • Legislation and regulations that may affect the efficiency or integrity of
      NSF’s programs. (See p. 8)

    • OIG disagreement with any significant decision by NSF management.
      (None)

    • Any matter in which the agency unreasonably refused to provide us
      with information or assistance. (None)




                                                                                    65
     Appendix 1



Appendix 2

                  Acronyms


                    AICPA    American Institute of CPAs
                    AIGI     Associate IG for Investigations
                    CFO      Chief Financial Officer
                    CIO      Chief Information Officer
                    COI      Conflict of Interest
                    COV      Committee of Visitors
                    DACS     Division of Acquisition and Cost Support
                    DCAA     Defense Contract Audit Agency
                    DD       Deputy Director
                    DFE      Designated Federal Entity
                    DGA      Division of Grants and Agreements
                    DOJ      Department of Justice
                    ECIE     Executive Council of Integrity and Efficiency
                    EPLS     Excluded Parties List System
                    EPSCoR   Experimental Program to Stimulate Competitive
                             Research
                    FISMA    Federal Information Security Management Act
                    FOIA     Freedom of Information Act
                    FY       Fiscal Year
                    GAO      General Accounting Office
                    GPM      Grant Policy Manual
                    GPRA     Government Performance and Results Act
                    HHS      Department of Health and Human Services
                    IACUC    Institutional Animal Care and Use Committee
                    IG       Inspector General
                    IPA      Intergovernmental Personnel Act
                    IRB      Institutional Review Board
                    IR/D     Individual Research and Development
                    KMS      OIG Knowledge Management System
                    LFP      Large Facility Project Office
                    MIRWG    Misconduct in Research Working Group
                    MRE      Major Research Equipment
                    MREFC    Major Research Equipment and Facilities Construction
                    MSP      Math and Science Partnership
                    NCURA    National Council of University Research Administrators
                    NIH      National Institute of Health
                    NSB      National Science Board
                    NSF      National Science Foundation



          66
                                           OIG Semiannual Report   March 2005




OA      Office of Audit
OI      Office of Investigations
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPP     Office of Polar Programs
ORI     Office of Research Integrity
PCIE    President’s Council on Integrity and Efficiency
PI      Principal Investigator
PFCRA   Program Fraud Civil Remedies Act
QCR     Quality Control Review
REU     Research Experiences for Undergraduates
SBIR    Small Business Innovation Research
SES     Senior Executive Service
STC     Science and Technology Centers
TSP     Thrift Savings Plan
USAP    United States Antarctic Program
VSEE    Visiting Scientists, Engineers and Educators




                                                                    67
      Appendix 1

OIG Staff Photos




         Dan Boesz and Dr. Christine Boesz pay
 tribute to Gloria vanKan (center), Assistant to
              the IG, on her retirement from the
                  National Science Foundation.




                                                         Dr. Bruce Umminger of OIA and Bruce Carpel, Senior
                                                         Advisor to the IG, discuss the OIG Semiannual Report.




                    Deborah Cureton, AIGA, presents a plaque to
          Ulysses Goodwin, Audit Manager, to commemorate his
                    retirement from 34 years of federal service.




             68
                                                OIG Semiannual Report        March 2005




                                 Dr. Ken Busch, Investigative Scientist, serves as
                                 emcee of the OIG Holiday Party.




 Bandana Sen, Auditor, and Linda Burch,
Program Analyst, celebrate the holidays.




                                             Brian Hess, Investigator and new parent,
                                             balances work and family responsibilities
                                             at the Holiday Party.




                                                                               69
Appendix 1




     70
                                          OIG Semiannual Report      March 2005

                     Organization Chart



                            INSPECTOR
                             GENERAL
                          Christine C. Boesz

                          DEPUTY INSPECTOR
                              GENERAL
                              Tim Cross

COUNSEL TO THE
  INSPECTOR
   GENERAL

  Arthur A. Elkins




ASSOCIATE IG FOR                                    ASSOCIATE IG FOR
    AUDIT                                            INVESTIGATIONS

Deborah H. Cureton                                   Peggy L. Fischer




      AUDIT                ADMINISTRATIVE            INVESTIGATIVE
      STAFF                    STAFF                     STAFF




                                                                        71
Appendix 1




     72
